<html>
<title> - PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS GRANTS:</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
           PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS GRANTS:

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS,
                              AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2007

                               __________

                           Serial No. 110-13

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                   U.S. GOVERNMENT PRINTING OFFICE
35-272 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

 BENNIE G. THOMPSON, Mississippi,    PETER T. KING, New York
             Chairman                LAMAR SMITH, Texas
LORETTA SANCHEZ, California,         CHRISTOPHER SHAYS, Connecticut
EDWARD J. MARKEY, Massachusetts      MARK E. SOUDER, Indiana
NORMAN D. DICKS, Washington          TOM DAVIS, Virginia
JANE HARMAN, California              DANIEL E. LUNGREN, California
PETER A. DeFAZIO, Oregon             MIKE ROGERS, Alabama
NITA M. LOWEY, New York              BOBBY JINDAL, Louisiana
ELEANOR HOLMES NORTON, District of   DAVID G. REICHERT, Washington
    Columbia                         MICHAEL T. McCAUL, Texas
ZOE LOFGREN, California              CHARLES W. DENT, Pennsylvania
SHEILA JACKSON LEE, Texas            GINNY BROWN-WAITE, Florida
DONNA M. CHRISTENSEN, U.S. Virgin    MARSHA BLACKBURN, Tennessee
    Islands                          GUS M. BILIRAKIS, Florida
BOB ETHERIDGE, North Carolina        DAVID DAVIS, Tennessee         
JAMES R. LANGEVIN, Rhode Island      
HENRY CUELLAR, Texas                 
CHRISTOPHER P. CARNEY, Pennsylvania  
YVETTE D. CLARKE, New York           
AL GREEN, Texas                      
ED PERLMUTTER, Colorado              
VACANCY                              

 Jessica Herrera-Flanigan, Staff 
    Director & General Counsel
      Todd Gee, Chief Counsel
   Michael Twinchek, Chief Clerk
 Robert O'Connor, Minority Staff 
             Director
<RULE>_________________________________________________________________

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

  HENRY CUELLAR, Texas, Chairman     CHARLES W. DENT, Pennsylvania
LORETTA SANCHEZ, California          MARK E. SOUDER, Indiana
NORMAN D. DICKS, Washington          MIKE ROGERS, Alabama
NITA M. LOWEY, New York              BOBBY JINDAL, Louisiana
ELEANOR HOLMES NORTON, District of   DAVID DAVIS, Tennessee
    Columbia                         PETER T. KING, New York (Ex 
DONNA M. CHRISTENSEN, U.S. Virgin        Officio)                 
    Islands                          
BOB ETHERIDGE, North Carolina        
BENNIE G. THOMPSON, Mississippi (Ex  
    Officio)                         
                                     
                                     
      Craig Sharman, Director
     Nichole Francis, Counsel
      Brian Turbyfill, Clerk
  Heather Hogg, Minority Senior 
     Professional Staff Member

                                  (II)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Charles W. Dent, a Representative in Congress from 
  the State of Pennsylvania, and Ranking Member Subcommittee on 
  Emergency Communications, Preparedness and Response............     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, Chairman, Committee on Homeland 
  Security.......................................................     4
The Honorable Bob Etheridge, a Representative in Congress from 
  the State of North Carolina....................................    24
The Honorable Nita M. Lowey, a Representative in Congress from 
  the State of New York..........................................    26

                               Witnesses

The Honorable John M.R. Kneuer, Assistant Secretary for 
  Communications and Information, National Telecommunications and 
  Information Administration, Department of Commerce:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Deputy Chief Charles Dowd, Commanding Officer, NYPD 
  Communications Division:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Corey Gruber, Acting Assistant Secretary for Grants and 
  Training, Office of Grants and Training, Department of Homeland 
  security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7

                               Appendices

A. Letter from Hon. John M.R. Kneuer and Mr. Corey Gruber........    39
B. Additional Questions and Responses:
      The Honorable John M.R. Kneuer Responses...................    44
      Deputy Chief Charles Dowd Responses........................    41
      Mr. Corey Gruber Responses.................................    42


   ARE THE DEPARTMENTS OF HOMELAND SECURITY AND COMMERCE EFFECTIVELY 
    COORDINATING TO MEET THE NATION'S EMERGENCY COMMUNICATION NEED?

                              ----------                              


                       Wednesday, March 14, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Lowey, Etheridge, and 
Thompson.
    Mr. Cuellar. [Presiding.] The subcommittee will come to 
order.
    This subcommittee meeting today is to do oversight over the 
interoperable communications grant programs and receive 
testimony from the Office of Grants and Training and the 
Department of Homeland Security and the National 
Telecommunications and Information Administration at the 
Department of Commerce on the question of whether they are 
coordinating effectively to meet our nation's emergency 
communications needs.
    In addition, we will hear from a representative of the New 
York City Police Department to receive a local perspective on 
the best way to utilize the grants.
    And again, for the witnesses, I certainly want to say 
welcome for being here with us.
    The only thing I do ask you is we do have a committee rule 
about getting the testimony 48 hours before, and again, it is 
just for the purposes to allow the members to have it 
beforehand and have staff an opportunity to review. So I know 
we are all pressed with time, but I would ask that next time 
that we get that information at least within the 48 hours to 
meet our committee rules.
    Again, good morning, and I want to thank all of you all for 
being here. And on behalf of the members and our chairman of 
our full committee, Mr. Thompson, we want to welcome you to 
this committee and certainly welcome our panel here.
    We are glad that you are here to discuss the MOU between 
the Office of Grants and Training at DHS and the National 
Telecommunications and Information Administration at the 
Department of Commerce to administer the $1 billion public 
safety interoperable communications grant program.
    We are also glad that we have a representative of the New 
York Police Department communications division who is here to 
give us a local perspective on the interoperability problem and 
give us guidance as to whether the federal government is 
helping to facilitate solutions.
    It is unsettling that even after the devastating Oklahoma 
City bombing, the 9/11 attacks, the London and the Madrid 
bombing, and the devastation that we had of Katrina, the 
hurricane Katrina, the interoperable communications still 
remains a problem across the nation.
    The 9/11 Commission report made it clear that this type of 
communication is critical yet until recently we made a little 
bit of progress. However, I believe that we are starting to see 
positive developments at the Department of Homeland Security, 
and I want to thank you for the progress that we have been 
seeing.
    And I am hoping that we are seeing the light at the end of 
the tunnel, and I do appreciate the hard work that your 
department has been putting in.
    The tactical interoperable communications scorecards 
recently released by the department assess the maturity of the 
tactical interoperable communications capabilities in 75 
metropolitan areas. The scorecards will help the department 
focus technical assistance programs and target specific areas 
of improvement in communications interoperability.
    Additionally, through the efforts of this committee and our 
chairman, Congress created a new Office of Emergency 
Communications at the department as part of the Katrina reform 
bill.
    The goal of this new emergency communications entity is to 
develop a national emergency communications strategy. It will 
be used to coordinate efforts by federal, state and local 
government emergency responders and the private sector to 
achieve interoperability and promote emergency communications 
operability.
    Finally, this Congress has begun to allocate real dollars 
to state and local governments aimed at funding 
interoperability solutions. In 2006, Congress authorized a $1 
billion interoperability grant program as part of the Deficit 
Reduction Act, which authorized the auction of some of the 
spectrum in the 700 megahertz band.
    Most recently, Democrats steered the passage of H.R. 1, the 
Implementing the 9/11 Commission Recommendations Act of 2007. 
Title 2 of the bill will create a standalone emergency 
communications grant program at the Department of Homeland 
Security.
    It appears that the Senate version of the 9/11 Commission 
includes the similar grant programs. Therefore, we are hopeful 
that this provision will become law in the near future.
    So I would like to once again thank the witnesses for their 
testimony that they are about to provide us members, and I look 
forward to a productive discussion on this very, very critical 
issue.
    The chair now recognizes the ranking minority member of the 
subcommittee, the gentleman from Pennsylvania, Mr. Dent, for 
any statements that he might have at this time.
    Mr. Dent. Thank you, Mr. Chairman.
    And I am really pleased that today we have officials from 
the Department of Homeland Security and the Department of 
Commerce here today to discuss this new $1 billion Public 
Safety Interoperable Communications grant program that was 
approved previously.
    I am also pleased that we are going to be hearing from 
Charles Dowd, Deputy Chief of the New York City Police 
Department. I look forward to hearing the NYPD's perspective on 
this grant program and to listening to any questions or 
concerns regarding the disbursement of grant funds and the 
application process.
    I was also pleased to hear that the long-awaited memorandum 
of understanding between DHS and Commerce was signed last 
month. I was particularly pleased to hear that the Department 
of Homeland Security will be playing a significant role in the 
administration of these funds.
    This Committee played an integral role last Congress in 
ensuring that the Department of Homeland Security will help 
manage this important new grant program to support first 
responder emergency communications.
    DHS, in my view, is the logical choice to administer this 
new program, given its role directly supporting and interacting 
with first responders through grant programs, technical 
assistance, training, and exercises.
    The NTIA, at least as I understand it, has little 
experience in distributing or administering grant funds, nor 
does it have experience working closely with state and local 
first responders.
    It is my understanding that DHS plans to integrate the new 
Public Safety Interoperable Communications grants with other 
existing programs like the State Homeland Security Grant 
Program.
    I also look forward to hearing how this will affect grant 
guidance, the application process, and the distribution of 
interoperability grant funds. For instance, how will these 
grant funds be distributed? If the grants are to be distributed 
based on risk, what will be the distribution formula?
    I also look forward to hearing more about the development 
of the grant guidance for this particular program. Many areas 
of the country have invested billions of dollars of their own 
monies in interoperable communication systems that do not 
utilize spectrum in the 700 megahertz range.
    In the Commonwealth of Pennsylvania, Pennsylvania State 
Police recently began using an 800-megahertz system to 
modernize and integrate communications among emergency services 
across the Commonwealth.
    And so my question is how will the grant guidance for the 
new $1 billion program ensure that agencies like the 
Pennsylvania State Police are not penalized for their past 
investments.
    And how will the grant program leverage interoperability 
investments that have already been made or that are under way 
across the country?
    So I do look forward to discussing these and other issues 
with the panelists today, and I certainly will welcome your 
testimony. And again, thank you all for being here.
    And I thank you, Mr. Chairman, for conducting this hearing.
    Mr. Cuellar. Thank you, Mr. Dent.
    The chair now recognizes the chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    And, Mr. Chairman, we want to thank you for the leadership 
that you provided, and I know that you made it very clear to 
this subcommittee that this is a critical issue, that we need 
to get to a solution, a practical solution, as soon as 
possible.
    Mr. Chairman?
    Mr. Thompson. Thank you very much, Chairman Cuellar.
    And I welcome the witnesses here today.
    As you know, we had a hearing on February 9th before the 
full committee, and I had to remind Secretary Chertoff that the 
MOU hadn't been completed at that time, and I am happy, based 
on comments made earlier, to see that it is, in fact, in place.
    Though a little late, it is nonetheless in place. The fact 
that two acts of Congress couldn't get it done--we still got it 
done, so I am happy with that.
    The $1 billion is real important to the process. Congress 
has made a commitment because interoperability--from our 
vantage point, this a really serious problem.
    During 9/11, Hurricane Katrina and Rita--if everybody 
involved in those three disasters could have had on-time 
communication, all of us are certain that a number of lives 
could have been saved.
    So we are committed to doing it. I am concerned a little 
bit that sometimes vendors get out ahead of the strategy and 
the plan, and so what happens may be like Pennsylvania or other 
states who are moving forward.
    I want to know, how will we now compensate or coordinate 
states who have been proactive or cities that have been 
proactive in this interoperability situation to bring it into 
an overall strategy?
    So, Mr. Chairman, I look forward to the testimony.
    And again, I thank the witnesses for their testimony they 
are about to give.
    I yield back.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Other members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    I now welcome the panel of witnesses.
    Our first witness is Mr. Corey Gruber, who is the acting 
assistant secretary from the Office of Grants and Training for 
the Department of Homeland Security. Mr. Gruber has served in 
that capacity since October of 2006 and has over 15 years of 
experience in the areas of emergency planning, programming and 
response.
    Our second witness is Mr. John Kneuer, who is the assistant 
secretary for communications and information for the National 
Telecommunications Information Administration, also known as 
the NTIA. Mr. Kneuer oversees and directs the NTIA, which 
represents the executive branch in both domestic and 
international telecommunications and information policy 
activities. The NTIA also manages the federal use of spectrum 
and performs telecommunications research and engineering, 
including resolving technical issues for the federal government 
and the private sector.
    Again, thank you for being here.
    And our third witness is Chief Charles Dowd, who is the 
commanding officer for the New York Police Department 
Communications Division. Chief Dowd has a special appreciation 
of the importance of interoperability in that he has served for 
27 years in the New York Police Department.
    And, Chief, thank you very much for being here with us.
    We are all pleased that all of you all here are present.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    And I now ask each witness to summarize his statement for 5 
minutes, beginning with Mr. Gruber.

 STATEMENT COREY GRUBER, ACTING ASSISTANT SECRETARY FOR GRANTS 
  AND TRAINING, OFFICE OF GRANTS AND TRAINING, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Gruber. Chairman Cuellar, Ranking Member Dent, Chairman 
Thompson and members, my name is Corey Gruber, and I serve as 
the acting assistant secretary in the Office of Grants and 
Training.
    On behalf of the secretary and the entire department, it is 
my pleasure to appear before you this morning and to discuss 
the strong partnership we formed with the Department of 
Commerce to co-administer the public safety interoperable 
communications grant program.
    I know, as you are aware, grants and training is 
responsible for preparing the nation against terrorism by 
assisting states and local jurisdictions, tribes and regional 
authorities as they prevent, deter and respond to terrorist 
acts.
    And this support, of course, includes grants, coordinated 
training, exercises, equipment acquisition and technical 
assistance.
    From fiscal year 2003 to 2006, DHS has provided more than 
$2.9 billion for interoperable communications initiatives, 
making it the largest category of expenditure in our homeland 
security grant program.
    Through 2006, we worked with 75 urban and metropolitan 
areas to develop tactical interoperable communications plans, 
test these plans through full-scale exercises, and assess the 
results through the development of the tactical interoperable 
communications scorecards.
    The scorecards were released in January of this year, and 
they provided a tailored assessment and specific 
recommendations on how best to improve an area's capability in 
the near term using its existing technology.
    We have relied heavily on our interoperable communications 
technical assistance program to support grantees. That program 
provides assistance and training at no cost to first responders 
in conjunction with communications equipment purchased with 
grant funding.
    Since its inception in 2003, that program has provided 
assistance to more than 65 urban and metropolitan areas, and 
that support has proved critical in all the interoperability 
efforts we have administered.
    As outlined in the memorandum of understanding, grantee 
technical assistance will continue to be a key component of 
this program as we support the development of the statewide 
plans and implementation of the grants.
    Section 3006 of the Deficit Reduction Act directed that 
NTIA, in consultation with us, help to establish the program 
and administer it to assist public safety agencies in their 
acquisition, deployment and training related to the use of 
interoperable communications systems.
    The Call Home Act also helped to describe how we would 
administer this program, again together, and instructed us to 
award the grants no later than September 30, 2007.
    So in support of the Deficit Reduction and the Call Home 
Acts, we established a partnership with commerce to develop and 
implement the program. The MOU was signed on February 16th. It 
authorized commerce to transfer funds to DHS, and we would 
administer the grant program.
    The Department of Commerce retains ultimate approval 
authority over all aspects of the program.
    Achieving the program goals requires building on many 
efforts that are under way regarding interoperability. The use 
of the funds, of course, will be linked to forthcoming 
statewide interoperable communications plans as well as 
recommendations that were provided during the tactical 
interoperable communications planning effort.
    A portion of these funds, up to 5 percent, will be used by 
states to support their statewide planning efforts. The 
remainder of the funds will be conditioned on the acceptance of 
the statewide plans and the supporting investment 
justifications. We will award all the funding by September 30th 
as required in the Call Home Act.
    Keeping with established grant processes, as advocated by 
many of our state and local public safety associations, these 
funds will be allocated using a modified version of our 2007 
risk methodology.
    DHS and the Department of Commerce are currently working to 
determine those specific allocations. They will be distributed 
via the state administrative agencies in the 56 states and 
territories.
    Both departments are currently developing the program 
application and guidance materials in line with the SAFECOM 
guidance, as directed in the Call Home Act. The guidance 
supports all lanes of the SAFECOM interoperability continuum, 
with allowable costs for planning, technology procurement, 
exercises and training.
    Regarding technology, the Deficit Reduction Act stated that 
funding should be used for systems that utilize forthcoming 
spectrum in the 700 megahertz band or provide interoperability 
with future systems.
    We believe it is important to support interoperability 
beyond 700 megahertz to ensure we can meet public safety 
agencies' unique requirements.
    Interoperable communications have been a longstanding 
priority for the administration and that is now supported by a 
strong partnership under the leadership of our colleagues at 
commerce.
    We are committed to ensuring we achieve baseline 
interoperability across the nation that can accommodate scaling 
seamlessly from localized incidents to large national 
responses.
    I look forward to answering any questions you have. Thank 
you, sir, for your time.
    [The statement of Mr. Gruber follows:]

                   Prepared Statement of Corey Gruber

INTRODUCTION
    Chairman Cuellar, Ranking Member Dent, and Members of the 
Committee, my name is Corey Gruber, and I serve as the Acting Assistant 
Secretary of the Department of Homeland Security's Office of Grants and 
Training (G&T). It is my pleasure to appear before you today to discuss 
the Department's progress on interoperable communications. Specifically 
my goal is to provide information on the Public Safety Interoperable 
Communications (PSIC) Grant Program and the way we are coordinating 
with the Department of Commerce's National Telecommunications and 
Information Administration (NTIA) to implement the program.
    As you are aware, G&T is responsible for supporting the 
Department's broader efforts to assist State, local, tribal, and 
territorial authorities in preventing, deterring, and responding to 
terrorist acts. G&T interacts directly with State and local 
jurisdictions and provides a broad array of support to America's State, 
territorial, and local governments. G&T's support includes grants, 
coordinated training, exercises, equipment acquisition, and technical 
assistance. G&T's grant programs were initiated in 1998, and currently 
provide funds to all 50 States, the District of Columbia, the 
territories, high-risk Urban Areas, public safety entities, non-
governmental and academic institutions, and the private sector.
    As you know, G&T will re-align and report to the Administrator of 
FEMA beginning on March 31st. This will strengthen our service support 
role to DHS components and our external partners across the full 
spectrum of homeland security activities.

PROGRESS TOWARD INTEROPERABILITY
    From fiscal year (FY) 2003 through FY 2006, G&T has provided more 
than $2.9 billion for communications interoperability initiatives, 
making it the largest category of expenditure through the Homeland 
Security Grant Program due in part to it being one of eight National 
Priorities under the National Preparedness Goal. We have learned 
through our partnership with state and local emergency responders that 
addressing interoperable communications is about more than simply 
purchasing equipment. In December, the SAFECOM program at DHS completed 
a comprehensive National Baseline assessment of thousands of state and 
local emergency response agencies. In addition, throughout 2006 we 
worked with 75 urban and metropolitan areas to develop tactical 
interoperable communications plans (TICP), test these plans through 
full-scale exercise, and assess the results through the development of 
Tactical Interoperable Communications Scorecards. These scorecards, 
released in January 2007, provide a tailored assessment of the progress 
each urban and metropolitan area has individually achieved with its 
available resources, as well as provide recommendations on how to best 
improve an area's capabilities in the immediate future using its 
existing technologies.
    In both the Baseline and Scorecard efforts, the findings have shown 
that interoperable communications equipment is only as effective as the 
governance structure planning, operating procedures, and training 
programs within which it is used. Specific findings and recommendations 
of the Tactical Scorecard report include:
        Governance--Areas with mature governance structures have 
        advanced further in implementing shared systems/solutions that 
        facilitate regional communications. Regionalized strategic 
        plans are largely not in place and should be developed for 
        communications interoperability with careful consideration for 
        how investments can be shared across the region.
        Standard Operating Procedures (SOP)--For many of the urban 
        areas, the DHS TICP assistance developed provided the first 
        formal, region-wide communications interoperability SOPs. 
        Additional steps should be taken to ensure that these 
        procedures (as well as those outlined in the National Incident 
        Management System) are fully instituted at the command and 
        responder levels.
        Usage--The proficiency in the use of communications 
        interoperability equipment and accompanying procedures varies 
        by the types of equipment used and is increasingly complex as 
        additional agencies are included in response efforts. In 
        addition, almost no region had completed a communications-
        focused exercise before the DHS TICP validation exercise, which 
        meant that the areas had no specific practice using their 
        interoperable communications capabilities in a region-wide 
        context.
    Throughout the TICP and Scorecard efforts, we have relied heavily 
on the Interoperable Communications Technical Assistance Program 
(ICTAP) to support our grantees. ICTAP provides technical assistance 
and training at no cost to first responders in conjunction with 
communications equipment purchased with grant funding. This program 
ensures that first responders understand the scope of their 
interoperability needs and how to fully utilize new technology. Since 
its inception in 2003, ICTAP has grown to provide assistance to more 
than 65 urban and metropolitan areas, and this support proved 
absolutely critical in the success of the TICP initiative. As outlined 
in the Memorandum of Understanding (MOU) between DHS and NTIA, grantee 
technical assistance will continue to be a key component of the PSIC 
Grant Program as we support the development of statewide plans and the 
implementation of communications interoperability grants.

INCORPORATING LESSONS LEARNED
    As we strive to develop the most effective PSIC Grant Program, DHS 
initiatives like the Baseline Assessment and TICP Initiative have 
provided critical data that will be incorporated into the PSIC Grant 
Program. For example, the use of PSIC funds will be based on a 
comprehensive planning effort by the state and local agencies, and must 
provide the flexibility to leverage the tens of billions of dollars in 
existing communications infrastructure already in place.
    Need for Planning: Building on the success of the TICP efforts for 
local planning, validation and improvement efforts, DHS has developed a 
statewide planning approach, which each State will be implementing 
throughout 2007. These statewide plans and the criteria set forth for 
their development must be the foundation for effective equipment and 
system purchases.
    Flexibility with Use of Funds: The Baseline Assessment and TICP 
Initiative have also documented that a wide range of communications 
technologies are currently in use at the State and local levels. The 
Deficit Reduction Act references interoperability with newly assigned 
700 megahertz (MHz) spectrum. DHS and Commerce believe that the Act's 
language does not limit the grant funds only to 700 MHz systems 
investments. Rather, we are committed to exploring the use of all 
available technologies to advance overall public safety 
interoperability, as long as those technologies will enable first 
responders to interoperate with the 700 MHz bands in the future.
    In developing the program plan upon which the MOU was signed, we 
have taken a thoughtful and developed approach to incorporate the 
multiple legislative directives and guidance that has been received 
over the last year, as well as feedback from practitioners and these 
lessons learned. Specifically, we have worked to reconcile timelines, 
guidance, and allocation methodologies to meet the goals of making 
meaningful improvements to public safety interoperable communications.

PSIC GRANT PROGRAM BACKGROUND
    Section 3006 of the Deficit Reduction Act of 2005 directed NTIA, in 
consultation with DHS, to establish a $1 billion grant program. The 
purpose of the grant program is to assist public safety agencies in the 
acquisition of, deployment of, and training for the use of 
interoperable communications systems that use or enable 
interoperability with communications systems that use the reallocated 
public safety spectrum in the 700 MHz band. The Call Home Act of 2006 
further amended how the PSIC Grant Program shall be administered by 
requiring NTIA, in consultation with DHS, to award the PSIC grant funds 
by no later than September 30, 2007.
    Through the Deficit Reduction and Call Home Acts, a partnership was 
established between DHS and NTIA to develop and implement the PSIC 
Grant Program. This partnership was affirmed in an MOU signed by each 
agency on February 16, 2007. Through the MOU, NTIA will transfer PSIC 
funds to DHS and NTIA will obtain the grant administrative services and 
expertise of DHS. DHS will support the administration of those funds 
while NTIA will retain ultimate approval authority over all aspects of 
the PSIC Grant Program. Through our strong working relationship with 
NTIA, we outlined a program plan and aggressive schedule of activities 
for meeting the Call Home Act deadline and as depicted in the timeline 
below.

               Figure 1. PSIC Timeline of 2007 Activities
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


PSIC GOALS AND ADMINISTRATION
    The PSIC Grant Program is a one-time opportunity to target specific 
funds and resources toward improving interoperability with respect to 
voice and data communications. The goals of the program are two-fold. 
First, the PSIC Grant Program will support public safety agencies in 
their acquisition, deployment, and training on interoperable 
communications systems that use or enable interoperability with 
communications systems that use the reallocated public safety spectrum 
in the 700 MHz band. Second, PSIC funds will be used to promote cost--
and spectrum-efficient technology solutions so long as those 
technologies will enable first responders to interoperate with the 700 
MHz band in the future. Working together, DHS and NTIA are committed to 
ensuring that these goals are met as we develop the guidance, criteria, 
and evaluation processes for the PSIC Grant Program.
    As part of our coordinated planning activities, we have determined 
that achieving these goals requires that PSIC funds build upon the many 
efforts that DHS, Commerce, as well as state and local agencies 
themselves, have in motion regarding interoperability. This means that 
the use of PSIC funds need to be linked to objectives identified in the 
forthcoming statewide interoperable communications plans, as well as 
linked to implementing the recommendations that were provided to local 
areas through the TICP process. We are ensuring these linkages, and 
therefore believe that we are avoiding any unnecessary duplication of 
efforts or requirements on state and local agencies, by providing a 
portion (up to 5%) of PSIC funds to states to support their statewide 
planning efforts related to the requirements of Section 3006 of the 
Deficit Reduction Act for the PSIC Grant Program. The remainder of the 
funds will be conditioned on the acceptance of the statewide plans and 
supporting investment justifications that clearly map state priorities 
to uniform planning criteria. All PSIC funding will be awarded by 
September 30, 2007 as required in the Call Home Act of 2006.
    Also keeping with known grant processes, as advocated by many state 
and local public safety associations, and in order to comply with the 
deadline set forth in the Call Home Act, PSIC funds will be allocated 
using a modified version of the DHS FY 2007 risk methodology. Currently 
DHS and NTIA are working to determine the specific allocation to be 
distributed to States and local public safety agencies via the State 
Administrative Agencies in the 56 States and territories.
    We are also currently developing the PSIC grant criteria in line 
with the SAFECOM guidance. The PSIC Grant Program will assist public 
safety agencies in the acquisition of, deployment of, and training for 
the use of interoperable communications systems that use or enable 
interoperability with communications systems that use the reallocated 
spectrum in the 700 MHz band. Moreover, the Program will assist public 
safety agencies in exploring the use of all available technologies to 
advance overall public safety interoperability, so long as those 
technologies enable interoperability with the 700 MHz band in the 
future. However, Federal funding is only part of the overall strategy 
to improve interoperable communication capabilities across the Nation. 
State and local community leaders are making interoperability a 
priority and leveraging their resources. Ultimately, solving 
interoperability is a complex issue that rests on leadership at the 
State and local level. Leadership through improved governance, 
dedicated funding, and commitment to working with neighboring 
jurisdictions will only succeed with sustained support at the local, 
State, and Federal level.
    Although the PSIC funding provides substantial assistance to State 
and local agencies in addressing and meeting their interoperable 
communications needs, more work will need to be done. Funding from 
programs such as the PSIC must work in concert with planning and 
program management activities at the State and local levels. We will 
work with our State and local partners to maximize the effectiveness of 
PSIC funding and continue our assistance to other planning and program 
management activities.

CONCLUSION
    Interoperable communications remains a priority issue for the 
Administration, for DHS, and for our NTIA partners. DHS remains 
committed to improving interoperable communications capabilities in 
every State to ensure that our Nation's first responders have the 
ability to communicate when the next disaster strikes. In closing, the 
DHS mission is critical; its responsibilities are great; and its 
commitment to protecting the citizens of this Nation is unwavering. I 
will gladly respond now to any questions that you and the Members of 
the Committee may have. Thank you.

    Mr. Cuellar. Thank you again for your testimony.
    I now recognize Mr. Kneuer to summarize your statement for 
5 minutes.

    STATEMENT OF JOHN KNEUER, ASSISTANT SECRETARY, NATIONAL 
TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION, DEPRTMENT OF 
                            COMMERCE

    Mr. Kneuer. Thank you, Chairman Cuellar, Chairman Thompson, 
Ranking Member Dent, for inviting me here to testify at NTIA 
and our responsibilities related to the public safety 
interoperable communications.
    As you are aware, the Deficit Reduction Act created the 
public safety interoperable communications grant program. This 
program, established within the Department of Commerce, is to 
be administered by NTIA in coordination with the Department of 
Homeland Security.
    The act directs NTIA, in consultation with DHS, to develop 
grant program policies, procedures and regulations to be 
awarded.
    I also note that the Call Home Act accelerated this grant 
program that all funds need to be awarded by the end of this 
fiscal year, as Mr. Gruber alluded to.
    Shortly after the signing of the act, we at NTIA began 
leveraging our expertise in the area of public safety 
interoperable communications and our relationships with the 
public safety community in order to implement the grant 
program.
    This program will assist public safety agencies in the 
acquisition of, deployment of, or training for the use of 
interoperable communications systems that can utilize or enable 
interoperability with reallocated public safety spectrum in the 
700-megahertz band.
    Getting to your point, Mr. Dent, with regard to 800 systems 
and others, we received communications from the city of New 
York with regards to their concerns from Mayor Bloomberg. Based 
on that, I traveled to New York. I have been with Chief Dowd in 
New York.
    Their focus is on consolidating at UHF, the point being--
and Pennsylvania and other states focused on 800--we clearly 
recognize that we should not be administering this program in a 
way that creates any disincentive to leverage existing 
resources and existing infrastructure to solve the 
interoperability communications program.
    I note that in New York, in consolidating at UHF, they also 
will have the ability to interoperate with a future 700-
megahertz system, so should Connecticut or New Jersey or 
another neighboring jurisdiction have a 700-megahertz system, 
their UHF system does have the ability to reach out.
    That would make them qualified for this grant program the 
way we are interpreting it in partnership with DHS. So I wanted 
to make that part reasonably clear at the outset.
    As we noted, on February 16th NTIA and the Office of Grants 
and Training executed our MOU--it is attached to my testimony--
to implement the $1 billion PSIC grant program.
    In consultation with the Office of Grants and Training, we 
will develop program policies, procedures and regulations to 
implement the program, will approve final grant awards and 
provide funding for the Office of Grants and Training for 
administrative costs and grant awards.
    The Office of Grants and Training, in cooperation with us, 
will provide administrative services and its considerable 
expertise to implement the PSIC grant program.
    In developing the PSIC grant program policies, NTIA will 
rely heavily on the expertise of our Institute of 
Telecommunications Science laboratories in Boulder, Colorado. 
ITS has been actively involved in the standard-setting process 
for public safety communications.
    We have partnered with agencies such as the National 
Institute of Standards and Technologies, Office of Law 
Enforcement Standards, various DHS offices including SAFECOM 
and the chief information officer's Wireless Management Office, 
the Department of Justice's Offices of Community Oriented 
Policing Services, the International Association of Chiefs of 
Police, the International Association of Fire Chiefs, the 
Association of Public Safety Communications Officers, and 
others.
    As directed by the conference report accompanying the 
Deficit Reduction Act, the PSIC grant program will be 
administered consistently with the recommended federal grant 
guidance, public safety communications interoperability grants 
from fiscal year 2007 developed by SAFECOM.
    In addition, our grants will be administered in a manner 
consistent with the urban area tactical interoperable 
communications plans, statewide interoperable communications 
plans, state and urban area homeland security strategies, and 
the national preparedness goals.
    Finally, NTIA and DHS will utilize existing application 
programmatic and administrative processes and resources to 
minimize the administrative burden on applicants as well as the 
non-grant management and administrative costs of the PSIC grant 
program.
    The program plan associated with the MOU sets forth a 
schedule of major activities regarding administration of the 
grant program, and the budget plan delineates the amounts of 
funds to be transferred between fiscal year 2007 and fiscal 
year 2011 for specific activities.
    Grants will be awarded after the grant guidance is 
completed, and grant application information and eligibility 
requirements will also be released at that time.
    Over the past year we have worked very closely with DHS to 
implement this program. In the months ahead, we intend to use 
our collective expertise to explore all available technologies 
that are available to first responders to advance overall 
interoperable communications.
    Thank you again for inviting me, and I look forward to your 
questions.
    [The statement of Mr. Kneuer follows:]

                 Prepared Statement of John M.R. Kneuer

    Thank you, Chairman Thompson, Ranking Member King, and Members of 
the Committee, for inviting me here today to testify about the National 
Telecommunications and Information Administration (NTIA) and our 
responsibilities to administer the Public Safety Interoperable 
Communications (PSIC) Grant Program created and funded by the Deficit 
Reduction Act of 2005, Pub. L. No. 109-171, and our coordination with 
the Department of Homeland Security (DHS) to implement this program. My 
name is John Kneuer, and I serve as the Assistant Secretary for 
Communications and Information and Administrator of NTIA.
    NTIA serves as the President's principal adviser on 
telecommunications and information policy issues, and in this role 
frequently works with other Executive Branch agencies. NTIA also 
manages the federal government's use of the radio spectrum. The 
intersection of telecommunications policy and spectrum management has 
been the key focus of NTIA, including public safety communications and 
interoperability issues. Spectrum enables communications for military 
operations and first responders in support of response and recovery 
efforts for natural disasters and terrorist attacks. At the same time, 
spectrum for communications contributes to innovation, job creation, 
and economic growth. Wireless technologies and services that depend on 
spectrum provide critical support to federal agency missions that serve 
the American people, and support to a wide array of commercial and non-
federal government applications. These applications provide economic 
benefits, and protect lives and property.
    Additionally, NTIA's Institute for Telecommunication Sciences has 
been actively involved in the standards-setting process for public 
safety communications. We have partnered with agencies and programs 
such as the National Institute of Standards and Technology's Office of 
Law Enforcement Standards, DHS's Office for Interoperability and 
Compatibility (OIC) and the SAFECOM Program, the Department of 
Justice's Office of Community Oriented Policing Services, the Federal 
Partnership for Interoperable Communications, and DHS Chief Information 
Officer's Wireless Management Office. NTIA is working daily with 
prominent members of the public safety community, including 
representatives of the International Association of Chiefs of Police, 
International Association of Fire Chiefs, the Association of Public 
Safety Communication Officials International, the National Association 
of State Emergency Medical Services Directors, the National Public 
Safety Telecommunications Council, the National Governors Association, 
and the National League of Cities. Our work is centered on developing a 
long-term standardized approach for nationwide communications 
interoperability and information sharing among local, State, and 
Federal public safety agencies, and short-term interim solutions to 
facilitate communications while the long-term approach is being 
completed.
    NTIA's long-term approach is based on an accelerated, yet 
structured, process that includes the public safety community to 
produce a comprehensive qualitative and quantitative statement of 
requirements for public safety communications (OIC's Public Safety 
Statement of Requirements), an architecture framework that describes 
the current and required future states of interoperability (OIC's 
Public Safety Architecture Framework), and interface standards that 
define the elements and performance of the interoperability 
architecture (Project 25 (P25) standards). Short-term, interim solution 
work is focused on testing and evaluating products and services offered 
currently to the community to determine if they can enable higher 
degrees of immediate interoperability effectively and economically. All 
segments of the NTIA program begin and end with practitioner input and 
acceptance. NTIA and its federal partners continue to work alongside 
practitioners to complete the remaining interface standards for P25, 
the digital narrowband solution that federal departments, such as 
Homeland Security, Justice and Defense, and many State and local 
entities have adopted.
    Within a few short weeks of the President signing the Deficit 
Reduction Act into law, NTIA began leveraging its expertise in the area 
of public safety interoperable communications and its relationships 
with the public safety community in order to implement the PSIC Grant 
Program. The program, which covers public safety agencies in all 50 
states, the District of Columbia, Puerto Rico and four U.S. 
territories, will assist public safety agencies in the acquisition of, 
deployment of, or training for the use of interoperable communications 
systems that can utilize or enable interoperability with reallocated 
public safety spectrum in the 700 MHz band for radio communication. 
NTIA does not view this language to limit the grant funds only to 700 
MHz systems investments. Rather, NTIA is committed to exploring the use 
of all available technologies to advance overall public safety 
interoperability, as long as those technologies will enable first 
responders to interoperate with the 700 MHz bands in the future.
    The Act directs NTIA, in consultation with DHS, to develop the 
Grant Program policies, procedures and regulations of the grants to be 
awarded. As required in the recently enacted Call Home Act of 2006 
(Pub. L. No. 109-459), the grants will be awarded by September 30, 
2007.
    Accordingly, on June 1, 2006, NTIA entered into an agreement with 
the Department of Treasury to allow NTIA to borrow necessary funds to 
implement the program as of October 1, 2006. On February 5, 2007, we 
hired an additional Communication Program Specialist to focus 
exclusively on the implementation of the PSIC Grant Program.
    On February 16, 2007, NTIA and DHS's Office of Grants and Training 
signed the attached Memorandum of Understanding (MOU) to implement the 
$1 billion PSIC Grant Program to help state, local and federal first 
responders better communicate during a natural or man-made disaster. 
NTIA, in consultation with the Office of Grants and Training, will 
develop PSIC Grant Program policies, procedures, and regulations to 
implement the program; will approve final grant awards; and will 
provide funding to the Office of Grants and Training for administrative 
costs and the grant awards. The Office of Grants and Training, in 
cooperation with NTIA, will provide administrative services and its 
considerable technical expertise to implement the PSIC Grant Program. 
Consistent with the Deficit Reduction Act, I am the deciding official 
on PSIC Grant Program guidance and all grant awards.
    The PSIC Grant Program will be administered consistently with the 
Recommended Federal Grant Guidance: Public Safety Communications and 
Interoperability Grants, Fiscal Year (FY) 2007 developed by the DHS 
SAFECOM Program. Grants are to be administered in a manner consistent 
with urban area Tactical Interoperable Communication Plans, Statewide 
Interoperable Communications Plans, state and urban areas homeland 
security strategies, the National Preparedness Goal, and accompanying 
guidance. NTIA and DHS will utilize existing application, programmatic, 
and administrative processes and resources to minimize the 
administrative burden on applicants as well as the non-grant management 
and administrative costs of the PSIC Grant Program.
    The PSIC Grant Program will be designed to complement funds that 
have been awarded through other grant programs--such as the Homeland 
Security Grant Program and the Infrastructure Protection Program--that 
include interoperable communications funds. The program guidance and 
application process will emphasize leveraging grants, contracts or 
state/local budgets to build and sustain intrastate and interstate 
regional capabilities and identified needs.
    The Program Plan sets forth the schedule of major activities 
regarding administration of the PSIC Grant Program and the Budget Plan 
delineates the amount of funds to be transferred between FY 2007 and FY 
2011 for specific activities. Grants will be awarded after grant 
guidance is completed in the third quarter of FY 2007 and grant 
application information, and eligibility requirements also will be 
released, at this time.
    Over the past year, NTIA has worked closely with DHS to implement 
this program. In a few weeks, NTIA will participate with SAFECOM and 
the Office of Grants and Training in a workshop held in partnership 
with the National Governor's Association Center for Best Practices on 
Statewide Planning for Public Safety Communications Interoperability. 
In the months ahead, NTIA intends to use its expertise to explore all 
available technologies that are available to first responders to 
advance overall interoperability. We are committed to designing this 
one-time grant opportunity to achieve a meaningful improvement in the 
state of public safety communications systems with a minimum of impact 
to our replacement of existing state, tribal, and local radio 
communications assets.
    During these days of heightened security and awareness, public 
safety agencies are required and expected to serve their citizens as 
effectively as possible. The Department of Commerce is committed to 
improving the state of communications interoperability within the 
United States, and NTIA is working vigorously on various 
interoperability issues to assist public safety agencies in meeting 
these expectations.
    Mr. Chairman, once again, I thank you for inviting me here today to 
speak to you and the Committee. This concludes my remarks and I would 
be glad to answer any question you or Committee members may have.

    Mr. Cuellar. Thank you, Mr. Kneuer.
    Thank you again, both of you all. We have one more witness, 
and then we will go into questions.
    I now recognize Chief Dowd to summarize your statement for 
5 minutes.

STATEMENT OF DEPUTY CHIEF CHARLES DOWD, COMMANDING OFFICER, NEW 
         YORK POLICE DEPARTMENT COMMUNICATIONS DIVISION

    Chief Dowd. Good morning, Chairman Cuellar and members of 
the committee. I am Deputy Chief Charles Dowd, commanding 
officer of the New York City Police Department's communications 
division.
    With me today is Assistant Commissioner for Wireless 
Services Steve Hart from the New York City Department of 
Information Technology and Telecommunications.
    On behalf of Commissioner Raymond W. Kelly and Mayor 
Michael R. Bloomberg, I am pleased to be here today to provide 
you with some areas of concern with regards to interoperable 
communications grant program.
    Let me begin by commending the House Homeland Subcommittee 
on Emergency Communications, Preparedness and Response and the 
Department of Commerce for your ongoing efforts to address our 
concerns with regards to the $1 billion public safety 
interoperability grant program.
    New York City has a growing population of more than eight 
million residents. Our emergency 911 system received 
approximately 11 million calls for service in 2006 and 
dispatched police, fire and medical responders to over 6.4 
million 911 calls. Our city's population is so large that it 
exceeds the population of 39 states.
    I mention these figures so you can more clearly understand 
that any major public safety technology changes have the 
potential to place an incredible financial burden on the city.
    Scored as one of the top-tiered cities involving threats of 
terrorism, New York City has been diligently working on its 
interoperable communications program since September 11th, 2001 
and has invested more than $1 billion in our own public safety 
infrastructure.
    This includes a commitment of well over $500 million to 
upgrade our interoperable voice and data networks.
    The city of New York believes that the funding received 
from this grant should be directly allocated to the local 
municipalities that understand the needs and technologies that 
are required for first responders.
    Unfortunately, under the existing plan, the funds will be 
shifted away from high-risk terrorist targets such as New York 
City and designated elsewhere.
    Furthermore, the requirement that funds be distributed to 
states only ensures that the communications needs of state 
agencies will be given preference over the needs of local 
municipal agencies, which are, in fact, the first responders to 
all urban emergencies.
    Fulfilling the communications needs of public safety first 
responders should be the goal. In order to fully understand the 
actual needs for interoperable communication, it is crucial 
that you listen to the first responders that are using the 
technology at these incidents and to avoid what experience has 
shown us is a tendency for communications technology to become 
vendor-driven.
    We believe our challenge is to look at how we can leverage 
the power and redundancy of existing and costly 
infrastructures. With prioritization for emergencies and 
multinetwork access, we can exploit the potential of these 
multiple existing networks and their cutting-edge technology 
for the benefit of public safety communications.
    We need to avoid stovepipe solutions that don't easily 
integrate with other systems, have limited capability, are not 
future-proof and have closed standards.
    We need to ensure that public safety is afforded the 
flexibility to explore new technologies such as I.P., Internet 
protocol-based systems, for interoperable solutions, through 
existing voice and data public safety networks and commercial 
systems, as well as cutting-edge communication technologies for 
high-rise buildings and subways, both prime terrorist targets.
    New York City is currently exploring how to expand its 
communications systems to include multiple communications 
layers with the use of both public safety and, to a certain 
degree, commercial systems.
    To obtain the highest standard of public safety, it is 
critical that agencies such as the NYPD and FDNY not be 
restricted in how we use grant funding.
    In the mid 1990s, the Federal Communications Commission 
granted the city license rights to Channel 16, which we 
utilized to build out a substantial interoperable 
infrastructure.
    At the beginning of this grant process, the city was faced 
with the restriction of using grant funding for a 700-megahertz 
system, which would have cost hundreds of millions of dollars 
and been absolutely unnecessary.
    It is gratifying to note that the Department of Homeland 
Security and the Department of Commerce have taken action to 
allow interoperable funds to be used for other than 700-
megahertz solutions.
    We have and will continue improving our interoperability 
capabilities with state and federal public safety agencies. It 
is the hope of the city of New York that we see continued 
coordination of effort taking place between the Department of 
Commerce, Department of Homeland Security and the Federal 
Communications Commission.
    Working together will enable every top-tiered city to gain 
the necessary funding and flexibility that is required to build 
a multilayered interoperable communications system, ultimately 
allowing first responders to communicate more reliably and save 
many more lives.
    The city of New York's public safety agencies are available 
to discuss this extremely important grant program upon your 
request.
    And in conclusion, I would like to reiterate the importance 
of this funding to the city of New York and the need for 
flexibility in both how it is allocated and spent.
    Thank you for the opportunity to address these important 
issues. I am pleased to answer any questions you might have.
    [The statement of Chief Dowd follows:]

           Prepared Statement of Deputy Chief Charles F. Dowd

    Good morning Chairman Cuellar and members of the Committee. I am 
Deputy Chief Charles Dowd, the Commanding Officer of the New York City 
Police Department Communications Division. On behalf of Police 
Commissioner Raymond W. Kelly and Mayor Michael R. Bloomberg, I am 
pleased to be here today to provide you with some areas of concern with 
regards to The Interoperable Communications Grant Program. Let me begin 
by commending the House Homeland Subcommittee on Emergency 
Communications, Preparedness and Response and the Department of 
Commerce for your ongoing efforts to address our concerns with regards 
to the one billion dollar Public Safety Interoperability Grant Program.
    New York City has a growing population of more than 8 million 
residents. Our emergency 911 system received approximately 11 million 
calls for service in 2006 and dispatched Police, Fire and Medical 
responders to over 6.4 million 911 calls. Our CITY'S population is so 
large that it exceeds the populations of 39 STATES. I mention these 
figures so you can more clearly understand that any major public safety 
technology changes have the potential to place an incredible financial 
burden on the city.
    Scored as one of the top tiered cities involving threats of 
terrorism, New York City has been diligently working on its 
Interoperable Communications program since September 11, 2001 and has 
invested more than $1 billion in our own public safety infrastructure. 
This includes a commitment of well over one half billion dollars to 
upgrade our interoperable voice and data networks.
    The City of New York believes that the funding received from this 
grant should be directly allocated to the local municipalities that 
understand the needs and technologies that are required for first 
responders. Unfortunately under the existing plan the funding will be 
shifted away from high-risk terrorist targets such as New York City and 
designated elsewhere. Furthermore, the requirement that funds be 
distributed to states only ensures that the communications needs of 
state agencies will be given preference over the needs of local 
municipal agencies, which are in fact the first responders to all urban 
emergencies.
    Fulfilling the communications needs of public safety first 
responders should be the goal. In order to fully understand the actual 
needs for interoperable communication it is crucial that you listen to 
the first responders that use the technology at these incidents and to 
avoid, what experience has shown us is the tendency for communications 
technology to become vendor driven.
    We believe our challenge is to look at how we can leverage the 
power and redundancy of existing (and costly) infrastructures. With 
prioritization for emergencies and multi network access, we can exploit 
the potential of these multiple existing networks and their cutting 
edge technology, for the benefit of public safety communications. We 
need to avoid ``stove pipe'' solutions that don't easily integrate with 
other systems, have limited capability, are not ``future proof'', and 
have closed standards.
    We need to ensure that public safety is afforded the flexibility to 
explore new technologies such as I.P. (Internet Protocol) for 
interoperable solutions through existing voice and data public safety 
networks and commercial systems, as well as cutting edge communications 
technologies for high rise buildings and subways, both prime terrorist 
targets.
    New York City is currently exploring how to expand its 
communication systems to include multiple communications layers with 
the use of both public safety and commercial systems. To attain the 
highest standard of public safety, it is critical that agencies such as 
NYPD and FDNY not be restricted in how we use grant funding.
    In the mid--90's the Federal Communications Commission granted the 
city the license rights to channel 16, which we utilized to build out a 
substantial interoperable infrastructure. At the beginning of this 
grant process the City was faced with the restriction of using grant 
funding for a 700 MHz system which would have cost hundreds of millions 
of dollars and been absolutely unnecessary. It is gratifying to note 
that the Department of Homeland Security and the Department of Commerce 
have taken action to allow interoperable funds to be used for other 
than 700 MHz solutions. We have and will continue improving our 
interoperability capabilities with state and federal public safety 
agencies.
    It is the hope of the City of New York that we see continued 
coordination of effort taking place between the Department of Commerce, 
the Department of Homeland Security and the Federal Communications 
Commission. Working together will enable every top tiered city to gain 
the necessary funding and flexibility that is required to build a 
multi-layered interoperable communication system ultimately allowing 
first responders to communicate more reliably and save many more lives.
    The City of New York's Public safety agencies are available to 
discuss this extremely important grant program upon your request. In 
conclusion I would like to reiterate the importance of this funding to 
the City of New York and the need for flexibility in both how it is 
allocated and spent. Thank you for the opportunity to address these 
important issues; I will be pleased to answer any questions you may 
have.

    Mr. Cuellar. Thank you, Chief, for being here with us.
    And again, I thank all the witnesses for being here with us 
and, again, for providing us the testimony.
    At this point, members how have an opportunity to ask 
witnesses questions. I will remind each member that he or she 
will have 5 minutes each for questions.
    I will now recognize myself for questions.
    The first question will go to Mr. Gruber. Your testimony 
states that $2.9 billion has been obligated to state and local 
governments to improve interoperability equipment and other 
projects.
    Are millions really ``stuck'' in the pipeline as some have 
argued? Or is funding sent to the states really obligated to a 
recipient and factors such as equipment back orders lead to a 
delayed expenditure of funds?
    And I guess, you know, the thrust of the question is how do 
we get the dollars from Washington down to New York City, or 
somewhere in Pennsylvania, or Mississippi, New York, North 
Carolina. How do we get those dollars down there as soon as 
possible?
    Because it is an issue that we know exists, but how do we 
get it moving as soon as possible?
    Mr. Gruber. Thank you, Mr. Chairman. Excellent question.
    You know that we have been looking at this issue for quite 
some time. There was a funding task force that Secretary Ridge, 
during his tenure, had commissioned to help us look at this.
    And in general, there is a distinction between--we often 
hear a term, draw-down. About 88 percent of the total monies 
awarded in grants have been, we believe, obligated.
    The challenge oftentimes, as you alluded to, is if they are 
for perhaps specialized equipment, and there are perhaps delays 
on behalf of a vendor. Or in other instances where state 
legislatures or county meet episodically or periodically, and 
they have to meet to approve or endorse a budget, those often 
times contribute to those delays.
    But we are confident--because we have daily contact with 
our grantees, we do annual monitoring, we have reporting 
consistently over the course of the year--that we are very 
carefully tracking this, and again, we think about 88 percent 
of the total money has been obligated. But there are 
challenges, as you noted.
    Mr. Cuellar. Okay.
    Mr. Kneuer, you are familiar with the interoperability 
continuum brochure that is produced by SAFECOM.
    Mr. Kneuer. Yes.
    Mr. Cuellar. Okay. Are you aware of the fact that it is the 
blueprint by which statewide interoperability plans are 
designed?
    Mr. Kneuer. Yes.
    Mr. Cuellar. Okay. And you are familiar with the five 
pillars of the continuum and their meaning?
    Mr. Kneuer. Yes.
    Mr. Cuellar. --which is governance standards for operating 
procedures, technology, training and exercises, and usage.
    Are you also aware that the interoperability continuum 
brochure was a key measuring tool for the baseline study as 
well as the scorecard that was produced by the Department of 
Homeland Security?
    Mr. Kneuer. Yes.
    Mr. Cuellar. Okay. Now, for the record, it is your 
understanding that the grantees under this interoperability 
grant program can use dollars pursuant to each of the columns 
that are a basis for an effective interoperability system?
    Mr. Kneuer. Actually, no.
    Mr. Cuellar. Okay.
    Mr. Kneuer. There are several?
    Mr. Cuellar. Yes, okay. If you can give us an explanation 
of why not.
    Mr. Kneuer. Sure. Because there are explicit limits in the 
statute on what these monies can be spent for, and so clearly, 
the interoperable communications plans, the scorecards, the 
various planning activities absolutely must take into account 
all of the lanes of the continuum, whether it is governance, 
training, protocols.
    Technology is just a piece, and communications equipment is 
just a piece, but it is, in fact, a critical piece. There are 
other existing--as Assistant Secretary Gruber referred to, 
there has already been $2.9 billion devoted. There will be 
continuing access to funds for those other components.
    This statute and these monies are focused on the technology 
coms piece of it, which is why it is very, very important for 
us to be working as closely as we are so that we can integrate 
this program into the ongoing programs to make sure that the 
states and localities and cities are making all the progress 
across all of the lanes of the continuum.
    This program, however, is focused on the one lane.
    Mr. Cuellar. Okay.
    Mr. Gruber, if I can just ask you, does this deviate from 
the practice that has been under the basis of the grant 
application under UASI in the state homeland security grant 
program?
    Mr. Gruber. We certainly have followed the guidance of the 
SAFECOM grant guidance and all the aspects of the continuum, so 
the other grant programs, all of which, with the exception of 
one, allow or have allowable costs for interoperable 
communications, are complementary to this effort.
    Just one example is that all states are asked to have a 
multiyear exercise and training plan, so in the course of that 
plan we would like to make sure that when they are testing 
interoperable communications that they are a key component of 
that exercise plan.
    So we think there is a high complementary effort here 
between all the programs. But as we write the guidance and the 
application kits, we are going to make sure that we haven't 
left any aspect of the continuum out.
    Mr. Cuellar. For both gentlemen, do we need to do anything 
to help you all on this? Because I want to make sure that we 
are all marching in the same direction on this, and if there is 
a different interpretation of the statute, I just want to make 
sure that we are all marching in the right direction.
    Is there anything we can do to help you?
    Mr. Kneuer. I think, you know, given the time constraints 
that we have under the Call Home Act, we are moving forward 
very rapidly. We are going to have our grant guidance out and 
have the monies awarded this year.
    The gaps that have been identified in the UASI scorecards, 
the gaps that will be identified under the state plans, will 
include gaps that go beyond communications equipment. These 
monies will be devoted toward filling in the communications 
equipment gaps. There are other monies that are available to 
fill in the other gaps.
    We just need to make sure that everybody understands how 
they can leverage these two programs to meet the one objective.
    Mr. Cuellar. Okay. Could I ask both gentlemen, will you 
please tell your staff to be in contact with our staff here to 
just keep us informed? If there is any gaps or anything that we 
can help you with, just let us know so we are not surprised a 
year from now. We certainly just want to work with you.
    Last question, to the chief: Chief, have both departments 
reached out to you, the Department of Homeland Security and the 
Department of Commerce, seeking your input in the 
administration of this public safety interoperability 
communications grant program?
    I mean, do we need to do anything else to work with you? 
Because you know, having served in the state legislature for 14 
years and understanding the local basis, we just want to make 
sure that we provide each other the input so we can work 
together with you.
    Chief Dowd. Yes, absolutely. And as Mr. Kneuer pointed out 
earlier in his testimony, he did come up to New York and he 
spent an entire day with us going through the--that is the kind 
of thing that, you know, quite frankly, goes a long way on the 
local level, even in a city the size of New York, you know, 
when you have people listening and understanding what your 
specific issues are.
    You know, and again, we have made substantial 
infrastructure investments over the last 10 years because of 
the concerns over our radio spectrum, and we were given Channel 
16 in the 400 UHF range, which was a great thing for us. I 
mean, we built out a tremendous infrastructure on that. So one 
of the concerns, obviously, that came up was when we started 
reading the requirements on this grant money, we kept seeing 
700 megahertz, 700 megahertz.
    Well, you know, we invited Mr. Kneuer up, and he was 
gracious enough to come up and speak to us and listen to the 
fact that, you know, there is no reason for us to be ripping 
out, you know, $2 billion worth of infrastructure to put in 
another $2 billion worth of infrastructure.
    Mr. Cuellar. Good.
    Chief Dowd. You know, there are other ways to skin that 
cat. If we need to be interoperable with people that build 800 
systems, or have VHF systems, or are building, you know, 700 
systems--which is a great thing. Don't get me wrong. To free up 
spectrum for public safety is a great thing.
    It is just that, you know, we don't want to be told you 
have to use this spectrum. You know, that is not going to help 
us.
    Mr. Cuellar. Good. Well, thank you.
    And I appreciate all three gentlemen--you know, 
departments. Make sure that you all continue working together.
    Mr. Gruber. Sir, if I might just add--
    Mr. Cuellar. Yes.
    Mr. Gruber. --we will be up on Friday all day talking about 
all of our grant programs, but we will have an opportunity to 
meet with the city and the state as well that is coming down 
for a session on Friday.
    Mr. Cuellar. Good. Well, that relationship between the 
state and the federal and the local is so important, so thank 
you for--both of you all continue doing that. Thank you.
    At this time, I recognize the ranking member of the 
subcommittee, the gentleman from Pennsylvania, Mr. Dent, for 
questions.
    Mr. Dent. Thank you, Mr. Chairman.
    And to follow up, Mr. Kneuer, on what was just stated by 
Mr. Dowd, I wanted to point out something to you. It would 
probably go a long way, too, in Pennsylvania if somebody came 
up and sat down with our State Police and put on that same show 
that you did with New York City.
    And I think if I understood you correctly that states like 
Pennsylvania that are using 800 megahertz or New York City that 
is using something other than 700 megahertz--that these 
communities are not going to be penalized in any way, is that 
correct?
    Mr. Kneuer. That is clearly our intention.
    Mr. Dent. Okay, because that is very important to us, and I 
would appreciate if you would perform a similar program for the 
Pennsylvania State Police.
    Mr. Kneuer. Yes, I would be happy to travel to Pennsylvania 
and meet a--in fact, in a prior life--I don't know if Don 
Appleby is still in the state police in Pennsylvania who had 
responsibility for these systems.
    We worked with the--in my prior life, I worked closely with 
the state of Pennsylvania in allocating and coordinating those 
800 megahertz frequencies to build out that statewide system, 
so I am very familiar with what they are doing in Pennsylvania.
    Mr. Dent. Good. Well, that goes a long way. And the grant 
program--I guess the other question was how will the grant 
program leverage interoperability investments that have already 
been made or that are underway across the country?
    In other words, I want to make sure that we are not going 
to have to rip out the hundreds of millions of dollars in 
investments that New York has made or Pennsylvania has made. We 
just want to make sure that everything is compatible and 
dovetails nicely.
    Mr. Kneuer. Absolutely. I think the value that we bring 
from the Department of Commerce, our experience with our 
laboratories in Boulder, the work we have done with federal 
public safety entities and agencies--our experience and our 
expertise in communications technologies writ large.
    It is enormously valuable to go and see what they do in New 
York, and likewise to travel to Pennsylvania, because you get 
an appreciation that there are different existing 
communications infrastructures in different cities, in 
different states, in different localities, and a one-size 
federal solution is not going to be effective to solving this 
problem.
    They need to have the flexibility to take advantage of the 
infrastructure they have on the ground and pursue effective, 
efficient timely solutions to the interoperability problem 
based on the existing communications systems they have.
    So we want to incentivize and enable them to make the best 
investments that are most suited to their particular existing 
situation.
    Mr. Dent. Good. I will take that as that--you are 
absolutely giving us an assurance that these areas that are not 
utilizing 700-megahertz systems or these interoperable 
communications systems at 700 megahertz--those areas will be 
eligible for funding.
    Mr. Kneuer. That is right.
    Mr. Dent. Okay.
    Mr. Kneuer. The linkage that I do draw there, though, is 
that as you are pursuing interoperable solutions for your 
existing infrastructure, that solution shouldn't wall you off 
from a future 700 system.
    As you are fixing your current problem, keep mindful that 
there are going to be new spectra available at 700 to make sure 
that you can link up in the future with those systems should 
they be deployed.
    Mr. Dent. Okay. Thank you.
    And one other thing, too, to Mr. Gruber. It is my 
understanding that the Department plans to improve the real-
time tracking of homeland security grant funds.
    Could you please discuss the steps the Department is taking 
to better track, manage, and oversee grant funds once they are 
allocated and distributed?
    Mr. Gruber. Of course, sir. We have a rigorous program 
under way. One of the things that we have done recently that I 
am sure you are familiar with is we have established an office 
of grant operations which is very key to make sure that 
financially we are tracking that.
    That is linked very closely with our program staff to make 
sure that we understand all the financial aspects of those 
grants as well as that they are meeting the objectives and 
goals of state strategies, statewide interoperable plans.
    We do annual monitoring. We have a series of reporting 
requirements, quarterly fiscal requirements. We do visits with 
our monitoring staff. We have preparedness officers that are 
out communicating with our grantees.
    We have just started a process where we are out physically 
visiting with each of the tier one urban area security 
initiatives, again to talk about how we can be more transparent 
in that process.
    And I am going to talk to Bud Larson in the Office of 
Management and Budget in New York City and others to help us 
understand how we can better do that.
    Mr. Dent. And to Mr. Kneuer, in your response to Chairman 
Cuellar's questions on standards and the use of funds, it 
sounds as if there are going to be two standards that guide the 
use of grant funds for interoperability. Is that correct?
    Mr. Kneuer. I didn't mean to create that impression, no.
    Mr. Dent. Oh, okay, because our concern was that that would 
appear to be contrary to existing requirements that all grant 
funds adhere to the SAFECOM guidance.
    Mr. Kneuer. Absolutely.
    Mr. Dent. Okay.
    Mr. Kneuer. We want to do nothing that is inconsistent with 
the SAFECOM guidance.
    Mr. Dent. Okay. Well, thank you.
    I will yield back, Mr. Chairman. I see my time is up.
    Mr. Gruber. Sir, if I might add, in March, March 21st 
through the 23rd, SAFECOM has a conference in Los Angeles which 
we will all be participating in that is looking specifically at 
the criteria for the statewide planning process.
    And they will have, I think, stakeholders from every state 
and the urban areas there as well.
    Mr. Dent. Okay. Well, thank you.
    And I see my time is up. I will yield back now.
    Mr. Cuellar. Thank you, Mr. Dent.
    At this time, the chair recognizes the chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for 
questions.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Chief Dowd, it is almost like our testimony mirrored each 
other. I am concerned about vendors. I am concerned about 
training. I am concerned that we target resources where the 
greatest risk happened to be.
    Congressman Lowey over here has been a champion of this 
whole notion of interoperability on this committee and has 
taken any a number of steps, including filing freestanding 
legislation to force Congress to do that.
    And I am happy to see this MOU put together. But the one 
thing I want to try to clear up is this notion that it is only 
limited to technology. Is that the interpretation of the MOU, 
that, you know, it is only limited to technology?
    Mr. Gruber. Well, sir, I can--the budget specifically has 
amounts allotted in there for technical assistance and for the 
management and administrative functions, development of grant 
guidance and the supporting and associated documentation.
    So there is a component of the budget that supports 
technical assistance, but it is obviously in our interest to 
leverage the resources that we have across all our grant 
programs to make sure they are complementary.
    So the budget--and I think John put the memorandum of 
understanding with his testimony--spells out in the program 
plan in the budget that there is some money, a limited amount 
of money, for technical assistance.
    Mr. Kneuer. The issue is the statute. The statute defines 
what the money can be spent on, and the language is, 
``acquisition of, deployment of or training for the use of 
interoperable communications systems that can utilize or enable 
interoperability with reallocated public safety spectrum in the 
700 megahertz band for radio communication.'' So the statute 
explicitly defines what the monies can be spent on.
    Now, we are interpreting the language ``enable 
communications with future 700'' expansively so that we do not 
make the error of separating this money from existing 
infrastructure that is in place.
    But the plain language of the statute makes it fairly clear 
that the other lanes of the continuum--all these other 
activities that are going on that are critical and inseparable 
components of interoperable public safety systems--they are 
fundable from the other programs, but this is a separate 
program that has explicit limitations in the statute that 
focuses it on radio communications systems.
    Mr. Thompson. But I guess the definition of how you see 
technology versus somebody else might be our conflict here, 
because as I understood what you just read, it actually goes a 
little further than just technology, the statute.
    But are you saying to us the interpretation by the 
department is that it will solely be limited to technology?
    Mr. Kneuer. That is the reading of our lawyers in the 
department, is that the limitations on this program are for 
interoperable communications systems, and, in fact, radio 
systems--writ largely, whether or not the overall components of 
those radio systems include other things.
    But I don't believe we have the flexibility to use these 
funds for things like governance plans and the other lines of 
the continuum that aren't technology related.
    Mr. Thompson. Mr. Chairman, I think what we should do is 
probably after the hearing get the department together with our 
committee staff to make sure that we all are on the same page. 
There is a little difference of opinion.
    And I want to make sure we leave with a general 
understanding as to what the funds can be used for, because a 
lot of communities will be coming to us saying, ``I see we have 
this $1 billion pot over there.'' Of course, New York wouldn't 
come, but maybe somebody else.
    But we need to clear it up, and so I would think at some 
point we would need to do that.
    I, too, went to New York--wonderful facility. The 
leadership that Commissioner Kelly and others have taken, not 
just in communication but in the whole homeland security 
field--you are to be complimented.
    And to some degree, we kind of copy what you do and take 
credit for it, but you know, such is Washington.
    But we do appreciate the good job that you do.
    Chief Dowd. Thank you.
    Mr. Thompson. I yield back.
    Mr. Cuellar. Thank you, Mr. Chairman.
    And we will go ahead and follow up with the department, 
because I believe there was a meeting where the staff had said 
something a little different, is that correct--on what day? 
February 22nd, I think, staff had said something a little 
different, so certainly we will follow up on that, just so we 
can all get on the same page. And that is what we are trying to 
do.
    Mr. Kneuer. We are happy to do that, and we will make--I 
will be available and the rest of our lawyers, both NTIA and 
the department, to get a sense--to make sure that we 
understand--
    Mr. Cuellar. Do we need lawyers on this one? Oh, yes, I am 
just kidding. Just kidding.
    Mr. Kneuer. Unavoidable.
    Mr. Cuellar. I am an attorney, so it is unavoidable. All 
right. We will do that.
    We will go ahead, Mr. Chairman, and do that.
    The chair will now recognize other members for questions 
they may wish to ask the witnesses, and again, in accordance 
with our committee rules and practices, I will recognize 
members who were present at the start of the hearing based on 
the seniority on the subcommittee, alternating between majority 
and minority.
    And we have got only Charlie here, so, Charlie, we are 
going to go with some of the members over here. And then those 
members coming in later will be recognized in the order of 
their arrival.
    The chair recognizes for 5 minutes the gentleman from North 
Carolina, Mr. Etheridge, for questions at this time.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Let me continue to follow up on the $1 billion that 
Chairman Thompson talked about, because that is money that was 
allocated in 2007. And it is obvious some of that will be moved 
forward.
    But my question is a little different, I think, than the 
chairman's was, because we really are--when we talk about 
interoperability or we talk about operability, we really--at 
the end of the day, we have got all the bells and whistles and 
all the equipment, but if we don't take care of the men and 
women who are doing the job, we don't get the job done. It 
really is about the people on the front line.
    And the very people working on the technology for 
interoperability have told me this as well, because in Katrina 
we saw what happened. We lost all the basic--there was no 
communication. All the operability was gone. So if you lose 
your operability, it is kind of hard to have interoperability. 
You don't have the basic needs.
    And we have a lot of departments across this country--fire 
departments, police departments, emergency medical response 
teams--that are still struggling just to have the basics, 
depending on where they are in this country.
    So my question, Mr. Gruber, is this. And it ties somewhat 
into what the chairman said, because we get caught up up here 
and forget that people really do live down here. We need 
interoperability, but we have got to have the other stuff.
    So my question is what is being done to ensure that the 
basic needs for infrastructure are met in the face of the cuts 
of the infrastructure grants, because they are being cut in the 
budget, because we talk about the numbers, but we are talking 
about rolling dollars forward, and they are cut.
    And secondly, is it possible to use these grants to target 
the development of operable communication grants?
    Mr. Gruber. Thank you, sir. I think you are exactly right. 
The way we characterize this program and many is it is really--
the sequence is people, product, process and then technology. 
We have got to have people with the right training and the 
operating procedures and governance structures to support all 
these systems that we are talking about here to be effective.
    And so we work very hard over the course of all the years 
of our grant programs looking at--again, with that investment 
we have made over six or more years, to look at ensuring that, 
again, across the whole spectrum--the interoperability 
continuum and all the other things that we do in terms of 
planning, training and exercising, to make sure we are 
proficient in all our critical tasks.
    All of those contribute to getting to where I think you 
want us to be, which is to make sure we have that basic 
operability, the processes, the products, and then the 
technology and systems we need to support that.
    Mr. Etheridge. All right. Let me follow that up, because in 
your prepared testimony you spoke of how the PSIG is designed 
to complement other programs.
    So my question is this. Do other homeland security grants 
allow for this type of expenditure? You know, are you penalized 
if you make the other grants? And would applicants be able to 
link together these different types of grants to meet their 
unique special needs across the country?
    Because obviously, if you are in New Mexico, it may not be 
the same thing it is, obviously, in New York or North Carolina.
    Mr. Gruber. Yes, sir. That is an excellent question, and 
yes, the other grant programs do provide allowable costs for 
interoperable communications, I think with the exception of the 
Metropolitan Medical Response System.
    So we very much have said from the start of this process we 
want to make sure all those programs are complementary. That is 
obviously in the best interest of the urban areas and the 
states.
    The state planning process, working with urban area working 
groups to make sure that the programs--all the efforts, as I 
mentioned in my oral testimony--all the efforts are already 
under way--are synchronized with what we are doing--
    Mr. Etheridge. To make it work.
    Mr. Gruber. Yes, sir.
    Mr. Etheridge. All right. Let me finally, before my time 
runs out--let me ask one other question, because as I talk to 
first responders across North Carolina, whether they be fire 
fighters, police officer, emergency personnel, in a lot of 
cases it is not a technological issue, it is a jurisdictional 
issue. And you are aware of what I am talking about.
    So my question is this. How do we address it? Because these 
are the people in the front line of our public safety across 
this country. They aren't going to call Washington. You know, 
if you are in New York, you are going to call 911 and it is 
just going to ring downtown, and the same is true across 
America.
    So my question is, how will you address this issue in the 
structure of requests for proposals and awarding of grants? And 
is the availability of new technology going to be enough to 
help these different groups with unique hierarchies so they can 
work together and communicate?
    And I think that is really what we are trying to get to.
    Mr. Gruber. Sir, you identified exactly what we found when 
we did the technical interoperable communications planning 
effort with the 75 urban areas. One of the things that we 
found--and it wasn't, obviously, news to the urban areas and 
the states, because they work with this every day--but that it 
really is that cross-jurisdictional, regional effort here that 
is important to this process.
    One of the things that Secretary Chertoff has said is we 
have to build the baseline interoperability that can be scaled 
from a localized event all the way up to a multijurisdictional 
national-scale response, and that has to work seamlessly.
    So we are very cognizant of that issue about how we build 
the system that can be scaled up to support catastrophic events 
but also have applicability day to day and get the usage day to 
day that we want those people to have.
    Mr. Etheridge. Thank you, Mr. Chairman. I yield back.
    Mr. Cuellar. Thank you, Mr. Etheridge.
    At this time, I will go ahead and recognize the gentlewoman 
from New York, Ms. Lowey, for 5 minutes of questions.
    And it was good seeing you late last night. We were both 
working late last night.
    Mrs. Lowey. With your lovely sandwich.
    Mr. Cuellar. Eleven o'clock at night, working late.
    Mrs. Lowey. Like every night.
    Well, I thank the chairman for your leadership and the big 
chairman, who left the room, for acknowledging all the years of 
work we have put in on interoperability.
    And I am glad to see and hear the witnesses' presentation. 
I am very pleased that NTIA and the Department of Homeland 
Security are interpreting the Deficit Reduction Act such that 
those who already are outside the 700 megahertz span will be 
eligible.
    But because I wanted to be sure--and as you know, I have 
been working with Mayor Bloomberg on this issue. I anticipate, 
because it is not totally public yet--I anticipate that the 
supplemental will include language that I requested to allow 
for public safety agencies that are currently operating on 
existing systems to be eligible for funds.
    So, Chief, we appreciate that you interpret it that way, 
but for those of us who have been here a while, we want to see 
it in print.
    Chief Dowd. Thank you for your help with that.
    Mrs. Lowey. So I anticipate it will be included. It is not 
all public as yet. And I thank you for the work you have done.
    We have had many hearings with the mayor and Ray Kelly, and 
we can really be proud of our police department in New York. 
And I know that my colleagues from around the country will 
acknowledge that.
    And with great respect to the department and all those who 
have been working on this issue, when there have been some 
differences of opinion, most of us will say if it is good 
enough for Ray Kelly, it is good enough for all of us. So thank 
you very much for the work that you have all done.
    As you know, the chairman referenced my focus on 
interoperability as a New Yorker. It is a massive challenge, 
and it can't be resolved in a year or even 2 years. It requires 
federal, state, local and private sector cooperation.
    But most of all, it requires a serious commitment and a 
willingness to invest the necessary resources to get the job 
done. Yesterday I sat down with SAFECOM director Dr. Boyd, who 
is very helpful and knowledgeable on this issue.
    And when he went through a good deal of his information 
with me, he mentioned that it could take 8 years from the time 
a local public safety agency solicits stakeholder input, 
secures the funding, plans a system, builds infrastructure, 
acquires the equipment, trains first responders, tests until it 
has a fully operational interoperability system.
    So PSIC, in my judgment, is not a solution. It is simply a 
first step toward providing our first responders with the tools 
they need to do their jobs.
    So my first question, gentlemen, is do you expect that 
these grants will significantly improve the scorecards issued 
from the tactical interoperability communications initiative?
    And if the program proves to be successful, would you join 
me in supporting an ongoing dedicated grant program so people 
can really predict the future with their investments?
    Mr. Kneuer. I certainly believe that this program and these 
resources will go a long way toward filling the gaps identified 
in the tactical interoperable coms scorecards and the plans.
    I think one of the challenges we have had in addressing 
this problem, which is clearly identified--every time we have a 
major event, you can identify the lack of communications--but 
we hadn't very accurately measured the extent of that problem.
    What are the capabilities in various localities and 
regions? What are the gaps that need to be filled? The work of 
DHS has now gone a very, very long way to identifying existing 
capabilities and identifying the gaps where we can devote 
resources to fill in those identified gaps.
    I think this program, as it is designed--the grant guidance 
coming out conditioned upon a showing that the state plans are 
in place, that the state plans feed into the tactical plans, 
that the state plans take into account everything that has been 
going on in the cities, and that these monies are driven down 
to the cities and localities where the actual needs are--I am 
confident at the end of this program, we will have 
significantly raised the level of tactical communications 
across the country.
    But I likewise agree with you that that will move us 
forward on one arm of the continuum. The continuum moves out 
into the future. And as there are future deployments, and in 
the ordinary life cycle we do new things, and based on our 
better understanding, this is an ongoing process for us.
    Mrs. Lowey. Yes.
    Mr. Gruber. Ma'am, if I might add, first of all, we 
completed the scorecards at the end of last year, and I know, 
because we hear every day, how much work is going on. It didn't 
stop, obviously, when we went out and visited and did the 
scorecards.
    There is tremendous improvements that are already taking 
place, so this will complement and build on that. And that was 
our intent.
    As I mentioned before, really 28 percent, roughly, of our 
grant monies are spent on interoperable communications. This is 
our largest expenditure.
    And so we think that the best way to serve those needs is 
to make sure the grant programs are integrated, much like we 
are trying to do here, as opposed to a separate and dedicated 
program, because as we just talked about with Mr. Etheridge, 
all of those aspects--governance, SOPs, the planning process--
we want to see that as a fully integrated effort. So that would 
be our perspective on that issue.
    Mrs. Lowey. And would you support an ongoing grant program?
    Mr. Gruber. Well, we obviously have ongoing grant programs 
that cover interoperable communications, almost all of them, 
and so we--I don't think, based certainly on what Dave Boyd 
told you, that we are going to, you know, get to the finish 
line here.
    We are trying to get to that minimum baseline that our 
secretary has talked about, to have that command level voice 
capability. But because of the complexities you alluded to, you 
know how much of a challenge this is.
    I think we all acknowledge it is going to be a multiyear 
endeavor.
    Mrs. Lowey. Thank you.
    And my time may be up. Let me just say that I see a greater 
focus on this than ever before, so I am much more optimistic. 
New York shows it can be done, and we learned the hard way that 
it had to be done.
    I can remember when I first started talking about this, Mr. 
Chairman, with Secretary Ridge, asking for standards. He said, 
``Oh, we will have them for you in 6 months.'' Well, a couple 
years went by. We still didn't have standards.
    I am very concerned about--someone mentioned the vendor-
driven communications equipment and how we keep hold of that. 
It seems to me we have to have clear standards in place. And 
obviously, you are not going to recommend that everyone buy the 
same cell phone.
    But if it is coming from the bottom up, as you mentioned, 
and Dr. Boyd mentioned that, too, we still have some--have to 
have, I assume, some standards so that we can have real 
interoperable communications.
    So I thank you. And again, I salute New York City for your 
leadership.
    Thank you.
    Mr. Cuellar. Thank you. And I thank the gentlewoman from 
New York.
    Members, if it is okay, we will go into a second round of 
questions. And I will go ahead and recognize myself at this 
time, and then recognize Mr. Dent, and then Mr. Etheridge, and 
Ms. Lowey, if you have any further questions.
    Mr. Gruber and, I guess, both of you all, according to the 
PSIC grant program plan submitted to the committee, a grant 
``will be awarded in fiscal year 2007 to public safety agencies 
within all of the 56 states and territories, in coordination 
with the urban and metropolitan areas therein.''
    Can you explain to the committee what you mean by 
``coordination with the urban areas''? And will states be 
required to pass through specific amounts to the large 
metropolitan areas? Or will each state determine how much 
funding is allocated?
    Mr. Gruber. I will be happy to start off addressing that.
    And, sir, I know you know; you looked at the program plan--
that there is specific guidance in there in terms of the pass-
through, and of course we are still working out the details on 
this, and we will have a focus group of stakeholders that will 
help us make sure we meet the tenets that the chief has talked 
about.
    Mr. Cuellar. And by a focus group, you are talking about 
local folks?
    Mr. Gruber. Yes, sir.
    Mr. Cuellar. Okay, good.
    Mr. Gruber. In the program plan, we spelled out 
specifically that we want to have a focus group to help us make 
sure we get the guidance right.
    But we did say in there that pass-through requirements had 
to meet the PSIC guidance, had to make sure they got the level 
of effectiveness we want, that they support the statewide plan, 
but, more importantly, that they incorporate the scorecard 
results that we found, because we have now very current and 
very fresh information from 75 urban areas, so we have every 
expectation, when we get those plans, and we get the investment 
justifications, and we do the peer review of this, again with 
stakeholders, that we will see that linkage to the urban areas 
and the metropolitan areas.
    Mr. Kneuer. I think Chief Dowd mentioned in his testimony 
that they would have preferred that we deliver the grants 
directly to the cities and localities.
    Given the timing from the Call Home Act, and just 
administrative efficiency, to get awards out in the time frame 
that we are dictated, we get efficiencies by going to the state 
administrative agencies.
    That being said, we clearly recognize that the needs are in 
the cities and the localities where the existing infrastructure 
is, where all the work is. So we will condition those grants on 
the state plans having a process to drive that money down where 
it is needed, the cities and localities.
    How precisely, what that formula may be--there is a formula 
that was included, I guess, in legislation on the Senate side, 
but our intention would be to work through it, share it with, 
you know, a focus group of relevant stakeholders at the state 
level and the city and local level, figure out how best we can 
accomplish that.
    But that will be part of the guidance and the conditions on 
the grants actually being distributed.
    Mr. Cuellar. Okay. Thank you.
    Chief?
    Chief Dowd. Yes. And I have discussed this with Mr. Kneuer, 
but you know, again, our position is pretty clear.
    We would like to see the money come directly to the cities, 
because our experience in the past in these types of things, 
not just on the federal level but also on the state level, is 
that certain monies that are--like, for example, in New York 
State, for many years there has been a 911 surcharge on 
telephone bills.
    And you know, you would expect that, you know, an 
appropriate percentage relative to population and workload of 
that would end up in New York City, and you know, we found from 
experience--this is just one example--that that wasn't the 
case.
    So again, you know, we would prefer to see that money come 
directly to us. That is clear. The mayor has made that case on 
a number of occasions. The police commissioner has as well.
    If it doesn't happen, we are going to watch very carefully 
just exactly what piece of that ends up, say, for example, in 
New York City.
    Mr. Cuellar. Okay. As we go in and follow up on that, if 
you can just, again, keep us--because I think we are all very 
interested in this, how the money will get down to localities.
    Let me just ask--and I will just follow up what Ms. Lowey 
said a few minutes ago. And I think all the members have seen 
this. I think the typical scenario would be something like 
this. You will have a sheriff, or a policeman, or a state 
trooper department. Federal agency said, ``Hey, we all need to 
communicate with each other. Are we in agreement?'' ``Yes, we 
need to do that.''
    And then somebody runs off up there, and they know a 
vendor, and the vendor will say, ``I have got you the right 
equipment.'' And then they buy it, and they spend a whole bunch 
of dollars, and then the city will say--or, you know, the 
county will say, ``You know what, city, what you just bought 
doesn't work with us, we have to do this,'' et cetera, et 
cetera, et cetera.
    I think that would be probably the typical almost vendor-
driven type of situation that Ms. Lowey, I think Mr. Thompson, 
and I am sure Mr. Dent are all concerned about, that if we 
don't set those guidelines--because keep in mind that if you 
talk to a local sheriff or local police, they probably won't be 
able to recite what your national plan or what your 
coordination will be on that.
    So I just ask you to just keep that typical scenario in 
mind, because if that is happening in Laredo, Texas, I am sure 
it is happening in Pennsylvania. I am sure it is happening in 
other parts of the country. So I would just ask you to keep 
that in mind, that those type of dynamics are happening every 
single day as we are trying to develop this.
    So as soon as you can get everything in order, let's try to 
move on this, because that is a typical--I saw it in Laredo 
last year, and they were talking. I was listening to them. And 
you know, the city had bought something. The sheriff says, 
``Well, that doesn't work for me.'' And then the state said the 
same thing, and the federal government said the same thing.
    So just keep that typical scenario that I am sure you are 
very familiar with as you work focus groups and all that.
    At this time, I will recognize the gentleman from 
Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    The draft grant guidance is due to the House Committee on 
Energy and Commerce and the Senate Committee on Commerce, 
Science, and Transportation by March 31st. Given the Department 
of Homeland Security's involvement in the administration of 
these grant funds--the draft guidance should be given 
simultaneously to the Committee on Homeland Security.
    And I guess my question is to both Mr. Gruber and Mr. 
Kneuer. Will you send that draft guidance to this Committee 
when it is sent to other congressional committees?
    Mr. Kneuer. Absolutely.
    Mr. Dent. Okay, thank you.
    And my next question, then, to you, Mr. Kneuer: The 
memorandum of understanding states that the National 
Telecommunications and Information Administration, NTIA, will 
retain approximately $11 million of the total of $1 billion in 
grant funding for the program.
    Why is this funding being withheld for administrative 
purposes? And how much funding will be withheld by both 
departments for administrative purposes? Is this typical in the 
administration of a program such as this?
    Mr. Kneuer. Those numbers are typical for a program of this 
size. That being said, given the way we are planning on 
operating the program--that we are going to be going to the 
states, that we do have--it is going to be more formulaic than 
it might have otherwise been had we done more of a competitive 
program, which would have increased administrative costs--that 
is a cap.
    And I would expect that we will ultimately be delivering 
more money into the grant pool. We have reserved that as sort 
of a rough budgetary tool as we were planning this out. I don't 
think--well, it is a contract--acquisition of our services.
    I don't think they are going to spend $30 million either. I 
think the total amount of monies that we have reserved for 
administrative resources is a cap that was sort of in line with 
overall administrative expenses of a grant program this size.
    But I am reasonably confident at the end of the day of that 
total $40 million, we will be putting a considerable amount of 
that back into the grant pool.
    Mr. Dent. Do you believe that the--
    Mr. Gruber. I was just going to add to that we will 
obviously carefully shepherd and husband those resources.
    But that management administration cost is associated, of 
course, with developing the program applications and guidance, 
making sure we can do the focus groups, have the stakeholders 
involved, all of those processes that we think are very 
important to making sure this program is managed effectively 
and delivers the outcome that you want to see.
    Mr. Dent. Do you believe that the administrative costs 
would be lower if only one department or agency were 
responsible?
    Mr. Kneuer. I don't know. I wouldn't necessarily think so. 
The people on my team that I have working on this in our 
offices here in Washington, in our laboratories in Boulder, are 
bringing an enormous amount of value to this program.
    The fact of the matter is before this program was in place, 
our laboratories in Boulder did much of the technical work for 
SAFECOM through the NIST OLIS offices.
    So to come up with a program that is going to be mindful of 
the power of technology to address this problem, to be mindful 
of the broad experiences across the federal government, we 
should be working together, and we are going to do it as 
efficiently as possible.
    But having it in these two places--we are not duplicating 
effort. We have got complementary efforts going forward.
    Mr. Dent. Okay. And I have a quick series of questions I 
wanted to ask you both, Mr. Kneuer and Mr. Gruber.
    The MOU that was signed last month by DHS and Congress lays 
out certain roles and responsibilities but does not go into any 
great detail on how the funds may be used or how they will be 
distributed.
    When do you anticipate that the grant guidance and 
application kits are going to be released?
    Mr. Kneuer. According to the work plan, the grant 
guidance?I believe we are supposed to have that done by the end 
of March time frame, and then, as I said, we will share that 
with the Congress.
    We will circulate that with the ultimate pool of grantees 
and then later in the summer get the final grants out.
    Mr. Dent. When will the applications be due, then? The 
applications would be due when?
    Mr. Gruber. We will put out the guidance in the July time 
frame. At the end of September, you know, we would make the 
allocations--at the end of September we are asking them to 
submit preliminary statewide plans to help look at those, much 
like we are doing now with our grant applications. We are 
giving a midterm review of those.
    And then on 1 November, the statewide plan and their 
investment justifications are due to us.
    Mr. Dent. And then when would the award notifications be 
expected, then?
    Mr. Gruber. Well, we will have a peer--well, the award 
notifications are coming out prior to--we will make sure that 
the September 30th date--
    Mr. Dent. Okay, September 30th.
    Mr. Gruber. --in the act--yes, sir.
    Mr. Dent. All right. The MOU also indicates that up to 5 
percent of the total available funds will be distributed in 
fiscal year 2007. Will each state and territory receive funds 
in fiscal year 2007, do you believe?
    Mr. Kneuer. Yes.
    Mr. Dent. Okay.
    Mr. Kneuer. That 5 percent is intended to help them in 
their statewide planning.
    Mr. Dent. Okay. Thank you.
    I yield back.
    Mr. Cuellar. Thank you, Mr. Dent.
    Mr. Etheridge, questions?
    Mr. Etheridge. Thank you, Mr. Chairman.
    Mr. Gruber, the baseline assessment study that was released 
in December of 2006 and the tactical interoperability scorecard 
that was released in January of 2007 found that governance and 
planning, similar to what I was talking about earlier, were the 
biggest challenges for multijurisdictional units.
    In fact, the studies and assessments for the Department of 
Homeland Security's own understanding is that technology is not 
the problem, as you indicated earlier.
    So my question is this. Why, then, does NTIA think that the 
$1 billion should be used for technology and not for core areas 
that have been identified for needed improvement--mainly 
governance and standard of operation?
    Mr. Kneuer. I think it is the plain language of the statute 
that established the PSIC program directs these funds toward 
the interoperable communications equipment. I agree that the 
challenge--the technology piece of the continuum is the easiest 
understood.
    That does not mean it is one that does not need additional 
resources. So there are clearly a need for resources. I don't 
think the chief would say, you know, ``Give us money for 
guidance and planning--or governance and planning, we don't 
need money for communications.''
    The equipment side is the easiest understood and the 
easiest to fulfill, but it still needs resources.
    Mr. Etheridge. Mr. Gruber?
    Mr. Gruber. Yes, sir. I might add, as I mentioned earlier, 
we think, again, that is why we have the continuum, and why it 
covers all those areas, and why for years our other grant 
programs have addressed interoperable communications.
    And I might also add that our national preparedness goal 
now for the first time identifies interoperable communications 
as a national priority and also regional collaboration, which 
gets to the issue you brought up.
    Mr. Etheridge. Okay. Let me follow that up. One more point 
before I get to the chief.
    Mr. Kneuer, you have stated that the attorneys at NTIA 
think the problem is technology.
    You made that in your statement. However, as I said 
earlier, the Department of Homeland Security's baseline studies 
and the tactical interoperable scorecard found that governance 
and standard of operation are the biggest challenge.
    So just share with us why and how the MOU was signed if 
there are these fundamental misunderstandings of how we ought 
to apply the grants.
    Mr. Kneuer. Yes. No, I shouldn't have created the 
misperception that our analysis of the limitations of the 
statute is a judgment of the continuum or which of the parts of 
the continuum are the most challenging, which are the most 
difficult.
    The legal analysis is one of statutory construction, not of 
the constituent parts of the interoperable communications 
problem. As a matter of the plain language of the statute, it 
identifies what these funds can be spent on. And it is fairly 
straightforward.
    And our reading is that it would not include the funding of 
large-scale plans?large-scale exercises that don't include a 
communications component or the drafting of interagency, 
interjurisdictional governance documents.
    The statute says it is for the equipment that utilizes or 
enables communication with.
    Mr. Etheridge. Okay.
    Mr. Kneuer. The statute is pretty straightforward.
    Mr. Etheridge. Chief, earlier I asked a question and I 
didn't give you a chance to respond as it related to the real 
challenges facing our first responders--our police, our fire, 
our medical personnel and emergency teams--that the issue is 
really--obviously, there is a technological issue, and we 
recognize that.
    But it really is a bigger jurisdictional issue. I would be 
interested in your comments on this issue, because you have a 
unique situation. New York is different than probably any other 
place in the country, even though we have other large cities, 
as a special place. And I would be interested in your comments 
on that.
    Chief Dowd. You know, New York is not that dissimilar from 
a lot of places. And you make a very good point, and it is a 
point that I have spoken to at a number of conferences around 
the country.
    And when you talk about this, it is that technology is only 
one component of the issue here. Just as big is the operational 
side of things.
    And one of the things that Police Commissioner Ray Kelly 
has been adamant about over the last couple of years is 
training and drills that utilize these tools so that 
operational commanders, when faced with a situation, understand 
what tools are available and what those tools will do for them.
    They don't need to know whether it is 700 megahertz. They 
don't need to know whether it is UHF or VHF. But they have to 
know what the stuff can do. And the only way that happens is 
through training and drilling. And that is not a one-shot 
thing. That has to be an ongoing effort. And they have to be 
tested on it.
    You know, homeland security came to us recently--I know 
Steve Hart from DUIT worked very hard on his tactical 
interoperability plan. You know, these things need to be 
tested. You know, we are not expecting money and then you not 
expecting results from it. There have to be results from it.
    So the only way you find out if you are doing it right is 
by testing it. And I can tell you that, you know, from the 
NYPD's perspective, the police commissioner leads that effort. 
And that is, I think, where the effort has to come through.
    It has to come from the executive in charge, you know, 
whether it is a county executive, a police department 
executive, a city executive. They have to be directly involved 
with ensuring that those tools are getting used the right way.
    Mr. Etheridge. I yield back.
    Mr. Cuellar. Thank you. And I thank the gentleman from 
North Carolina.
    At this time, I recognize the gentlewoman from New York, 
Ms. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman.
    As we know, in its short history, DHS has made serious 
mistakes when distributing grant funds, and this has been the 
subject of several hearings. And in fact, Secretary Chertoff 
has even admitted that the fiscal year 2006 allocation had 
problems.
    And I was delighted. I took this as a real welcome sign 
that in the fiscal year 2007 allocation improvements would be 
made. However, the fiscal year 2007 grant guidance inexplicably 
limits urban area security initiative funding for the six most 
high-risk cities to 55 percent of the total funds.
    In fiscal year 2006, these six regions received 
approximately 53 percent of total funds. I am concerned about 
that. In my judgment, I am not thrilled to be a New Yorker and 
be number one in every risk-based analysis.
    But it seems to me it is imperative that areas that face 
the highest risk of attack receive the much-needed funds.
    We know what happened on September 11th. I don't have to 
repeat that. New York remains the most likely target of a 
terrorist attack. And New York and the other areas that are 
likely to experience the most significant emergencies should be 
the main beneficiaries of the grant program.
    It shouldn't be distributed as pork. There are a lot of 
other programs in the federal government that can address local 
concerns throughout the country.
    But if this was set up for the purpose of directing funds 
to those communities that are high risk, it would seem that the 
formula should reflect that.
    So will the PSIC program place an artificial and 
unnecessary limit on these metropolitan areas that need 
interoperability the most? And, gentlemen, could you detail for 
us your plan in allocating the grants?
    Mr. Gruber. Well, ma'am, I will go ahead and start. And 
thank you. And we certainly appreciate--we came up to talk to 
the subcommittee about the fiscal year 2007 risk formulas, and 
I know the secretary has talked about this a lot, and we have 
had a high degree of leadership involvement in that fiscal year 
2007 process.
    There is a balance that needs to be struck in terms of 
relative risk and ensuring that, again, we target those areas 
with the highest risk but we also make sure that we are 
striving to raise the baseline across the country. And that is 
a delicate balance. And Congress has helped us a lot to 
understand how to strike those balances.
    I might mention that in this, we said that we would like to 
use the current formula, but we understand--and when we came up 
and talked with staff in the last several weeks--that we have 
to be appreciative of the fact that there may be other 
considerations that need to be integrated into the formula.
    So right now we are having those discussions. Our staffs 
have been meeting frequently. Again, we are going up to the 
city on Friday. I am sure we will hear similar concerns from 
them. So we are taking those all into account as we look to 
strike the right balance in the methodology we will apply to 
this program.
    But again, we also have a time constraint, so we are trying 
to do it as effectively as we can with the time we have 
allotted.
    Mr. Kneuer. That is right. We want to use the existing 
formula as a starting point, but also take into account that 
there are other issues. And this program is not intended to be 
specifically focused on terror threats.
    But it is, in fact, as Secretary Gruber pointed out, 
intended to raise the level of baseline interoperable 
communications across our country.
    Mrs. Lowey. Chief, do you have any comment on this?
    Chief Dowd. You have spoken with Mayor Bloomberg, I am 
sure, on this subject, so you know our position.
    We see this as an issue of ensuring that the money goes to 
the place where the greatest threat is. I mean, you know, the 
mayor has repeatedly made public statements, including 
testimony down here in Washington.
    We know there are other concerns around the city--I am 
sorry, around the country. You know, Katrina was a tremendous 
catastrophe. But you know, this interoperability issue was 
driven by a terrorist event. And New York City is still and 
obviously the number one terror target.
    So our belief is that, you know, allocations of these funds 
should be driven by that issue, terrorism.
    Mrs. Lowey. Thank you very much, Mr. Chairman. Again, I 
appreciate your holding this hearing. An I happen to feel, when 
we are dealing with homeland security, the funds should be 
focused on threat, risk, vulnerability.
    And certainly billions of dollars have been directed toward 
Katrina. And I am totally supportive. But there are times, as I 
attend hearings and read reports on what is happening there, a 
lot of it is just plain incompetency at all levels and not 
necessarily the money that is being distributed.
    We had a hearing just the other day, Mr. Chairman. I could 
barely believe it. They are still figuring out what to do with 
the excess trailers. In the meantime, we have a report that day 
that 200,000 veterans are homeless.
    Well, Mr. Farr and I, who were sitting next to each other 
in the hearing, said, ``How come we figured this out in 5 
minutes?'' Maybe they shouldn't be giving the trailers away at 
40 percent of cost. Maybe they can give them to the 200,000 
homeless veterans.
    I have been in government for a very long time, and 
sometimes there just isn't a connect. People follow their 
pipeline responsibilities, and somehow we are not connecting at 
all.
    So Katrina should get every single thing they need. But 
when it comes to interoperability, in my judgment, it should be 
based on risk, threat, vulnerability.
    And I thank you, Mr. Chairman.
    Mr. Cuellar. Thank you. And I thank the gentlewoman from 
New York.
    And I know for you all it is difficult. You know, you have 
got issues like New York, and then you have got issues like 
Katrina, and then you have got folks like me from the border 
where we have huge drug violence across the river.
    And I know what is happening with the drug dealers?and of 
course, our border folks want to make sure that they can 
communicate with the state and the federal and the local folks 
and all that.
    So I appreciate the difficult times--you know, difficult 
issues that you all have to look at, and we certainly want to 
work with you to help address some of those issues.
    So I want to thank you all, all three witnesses, for being 
here, and thank the staff, both your staff and our staff, for 
getting this meeting together for us. And I want to thank you 
for your valuable testimony and the members for their 
questions.
    And the members of the subcommittee may have additional 
questions for you, and we ask that you respond to them as 
expeditiously as possible in writing to those questions.
    Hearing no further business, the hearing stands adjourned.
    [Whereupon, at 11:36 a.m., the subcommittee was adjourned.]


                           A P P E N D I X--A

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                           A P P E N D I X--B

                              ----------                              


                   Additional Questions and Responses

                    Chief Charles F. Dowd Responses

                 Questions from Hon. Bennie G. Thompson

    Question 1.: How do you think the Department of Homeland Security 
and Commerce should allocate funding under the Public Safety 
Interoperability Communications Grant program?
    Response: The Department of Homeland and Commerce should allocate 
Interoperability Communications Grant based upon the threat level that 
exists within the applicant's jurisdiction.

    Question 2.: Should each State get a minimum amount of funding?
    Response: No, Department of Homeland Security and Department of 
Commerce grant awards should be based upon the need to protect 
strategic assets, the loss of which would have devastating 
consequences. The historical record of past attacks and thwarted 
attacks on these high value assets should also be considered. Grants 
should be awarded directly to the cities at greatest risk.

    Question 3.: Should small and mid sized cities be eligible for 
funding?
    Response: All cities should be eligible for grant funding, provided 
that they demonstrate that major terrorist targets are located within 
their jurisdiction or that there is a documented history of terrorist 
activity.

    Question 4.: What are the three main questions or concerns that you 
and the New York City Police Department have regarding the Public 
Safety Interoperable Communications Program?
        Response: Our three major concerns are:
                1. That grant funding not be restricted to the 700 MHz. 
                public safety frequency band but be awarded directly to 
                tier one cities regardless of which frequency band they 
                utilize for their public safety interoperable 
                communications.
                2. New York City should be given an higher priority 
                when allocating grant funding, based upon the major 
                financial assets located within the City, and the 
                potential for a major disruption to the national 
                economy should these assets be attacked. (I.e. New York 
                Stock Exchange, American Stock Exchange, New York 
                Federal Reserve Bank). New York City has been, and 
                continues to be a major target for terrorism.
                3. The FCC should finalize the rules for the 700 MHz. 
                Public Safety band as expeditiously as possible, so 
                that jurisdictions can better plan their Interoperable 
                Communications strategy. In this regard, the FCC, the 
                Department of Homeland Security and the Department of 
                Commerce should bear in mind that data interoperability 
                depends more upon the use of common protocols and 
                software applications than the spectrum utilized to 
                transport these applications.

    Question 5.: Would you please describe your interaction with the 
Department of Homeland Security regarding interoperable emergency 
communications?
    Response: The New York City Police Department Communications 
Division interacts directly with the NYPD Grants Unit and the U.S. 
Department of Justice Community Oriented Policing Services (COPS) 
office in implementing and monitoring the 2005 COPS grant awarded to 
NYPD. The New York City Police Department in concert with other New 
York City emergency responder agencies interacts with the Department of 
Homeland Security both directly and through the Urban Area Security 
Initiative (UASI) program.

    Question 6.: How does your office interact with the Department of 
Commerce regarding interoperable communications?
    Response: The New York City Police department interacts with 
Department of Commerce and the National Telecommunications and 
Information Agency (NTIA) through visits by NYPD to Washington D.C. and 
by visits of NTIA officials to New York City. These interactions have 
been focused on explaining the NYPD operational and communications 
requirements to senior NTIA staff.

    Question 7.: Would you please describe efforts underway to insure 
that City agencies are able to interoperate with regional and State 
first responder agencies? What frequency range is being used to achieve 
this level of interoperability?
    Response: The New York City Police Department as well as other City 
and regional first responder agencies use the six New York Metropolitan 
Area Communications (NYMAC) interoperability channels. The New York 
City Police Department has been awarded a 2005 COPS grant to expand the 
use of these channels to surrounding jurisdictions. The NYMAC 
Interoperability channels are on the 482--488 MHz. band.
    In addition, the New York City Police Department has the capability 
of enabling a patch (Gateway) to the Federal VHF interoperability 
channel which will allow Federal agencies operating on VHF channels to 
communicate with NYPD field units.
    The New York City Department of Information and Telecommunications 
operates an 800 MHz. radio system. Designated users of this radio 
system have the capability of communicating on the National Public 
Safety 800 MHz. Mutual Aid channels.
    New York City DOITT is in the process of deploying a wireless 
broadband data network which will operate on the band. The New York 
City Police Department as well as other City agencies will utilize this 
network to provide data interoperability once this network is installed 
and accepted.
    Again, thank you for the opportunity to address the Committee on 
March 14, 2007, I considered it an honor.

                      Responses from Corey Gruber

                 Questions from Hon. Bennie G. Thompson

    Question 1.: Will DHS use different risk methodology in allocating 
funding under the Public Safety Interoperable Communications Grant 
program than it does for its other homeland security grant programs?
    Will the Department advocate a more regional and statewide approach 
for these grants?
    Response: The guidance for the PSIC Grant Program is currently 
being developed jointly by the National Telecommunications and 
Information Administration (NTIA), Department of Commerce and 
Department of Homeland Security (DHS) and the funding allocation will 
be announced in mid-July. The allocation methodology and any potential 
changes to the current DHS formula for risk=threat x vulnerability x 
consequence methodology are also being discussed.
    DHS currently advocates both regional and statewide solutions to 
promote interoperable communications. A priority in the National 
Preparedness Goal--``Strengthen Interoperable Communication 
Capabilities'' also promotes collaboration at the regional and State 
level to improve communication capabilities. In addition, the FY 2006 
and 2007 State Homeland Security Grant Program requires each State and 
territory to submit a Statewide Communications Interoperability Plan by 
November 2007. These plans will be peer reviewed, and investments for 
the Public Safety Interoperable Communications (PSIC) grant program 
will be tied to gaps in interoperable communications identified by the 
statewide plan.

                   Questions from Hon. Peter T. King

    Question 2: Would you please discuss the Department's findings from 
the Tactical Interoperable Communications Program (TICP) scorecard 
process?
    Does the Department plan to repeat this assessment? If so when?
    Will the scorecard results play a role in determining the grant 
awards for the new Public Safety Interoperable Communications grants?
    Response: Overall, the scorecard results show that areas have made 
significant, measurable progress in improving their tactical 
interoperable communications capabilities. The technology exists to 
permit interoperable communications, but solutions are often not 
available regionally and are far from seamless in many areas. Continued 
training on available technical solutions and procedures for their use 
is critical to operational success. Even in areas that have 
demonstrated success at the tactical, command level of communications 
interoperability, there is still work to be done. agency communications 
have been addressed within many of these jurisdictions, but 
regionalizing the existing communications strategies to identify longer 
term interoperability goals across multiple jurisdictions and levels of 
government still needs to be addressed.

    The scorecard evaluation focuses on
        Standard Operating Procedures (SOPS)--For many of the urban 
        areas, the Tactical Interoperable Communications Plans (TICP) 
        developed through the Interoperable Communications Technical 
        Assistance Program (ICTAP) provided the first formal, region-
        wide communications interoperability Additional steps should be 
        taken to ensure that these procedures (as well as those 
        outlined in the National Incident Management System) are fully 
        instituted at the command and responder levels.
        Usage--The proficiency in the use of communications 
        interoperability equipment and accompanying procedures varies 
        by the types of equipment used and is increasingly complex as 
        additional agencies are included in response efforts. In 
        addition, almost no region had completed a communications-
        focused exercise before the TICP validation exercise, which 
        meant that the areas had no specific practice in testing and 
        evaluating their interoperable communications capabilities.
    Governance--Areas with mature governance structures have advanced 
in implementing shared that facilitate regional communications. 
Regionalized strategic plans are largely not in place and should be 
developed for communications interoperability with careful 
consideration for how investments can be shared across the region.
    At this time DHS has not determined if the scorecard process will 
be repeated in the future. However, DHS is committed to using the 
information identified in the scorecards as a contributor to the Public 
Safety Interoperable Communications (PSIC) grant program. Investment 
justifications for the PSIC grant program will be based on the 
Statewide Communication Interoperability Plans. Each statewide plan 
must account for areas that participated in the Tactical 
Interoperability Communication Scorecards process. Final program 
guidance for the PSIC grant program is still being developed by NTIA 
and the Department of Homeland Security; and, once completed will 
further define how the and statewide plans will be incorporated into 
the PSIC grant program and future potential requirements for 
scorecards.

    Question 3: If Public Safety Interoperable Communications (PSIC) 
funds will be distributed through the States, what requirements will 
States have to ensure that the funds are passed to the urban areas in a 
timely manner? How will this be enforced?
    Will States and urban areas be able to use these grant funds to 
support operability as well as interoperability?
    What kinds of technologies and equipment will States and urban 
areas receiving funds be able to purchase? Will the grant guidance 
attempt to encourage the purchase of next generation technologies such 
as IP-based systems?
    Response: The guidance for the PSIC Grant Program is currently 
being developed jointly by the NTIA and Department of Homeland Security 
(DHS). Pass through procedures for urban areas are being discussed and 
will be released as part of the guidance in mid-July 2007. Enforcement 
of grant program guidance requirements will be conducted through robust 
on-site monitoring, as well as detailed grantee reporting requirements. 
NTIA and the Department of Homeland Security understand the need to 
support emergency communications operability as well as 
interoperability for our nation's first responders. While the obvious 
focus of the PSIC program is to improve interoperability among Federal, 
State and local public safety agencies, some interoperability solutions 
may also improve the state of operability in some circumstances. NTIA 
and DHS are committed to exploring the use of all available 
technologies that advance overall public safety interoperability, as 
long as those technologies will enable first responders to interoperabe 
with the 700 MHz band in the future. NTIA and DHS are in the process of 
drafting program guidance for the PSIC grant program which will further 
define allowable costs.

                    Responses from John M.R. Kneuer

                   Questions from Hon. Henry Cuellar

    Question: Interoperable data is as critical to first responders as 
interoperable voice communications. In fact, software and hardware for 
data communications currently being developed by the private sector 
today may form the backbone of tomorrow's interoperable systems. Do you 
foresee making these grants available for developing interoperable data 
(as opposed to voice) communications?
    Response: Section 3006 of the Deficit Reduction Act of 2005, Pub. 
L. No. 109-171, defines interoperable communications systems as 
``communications systems which enable public safety agencies to share 
information amongst local, state, federal, and tribal public safety 
agencies in the same area via voice or data signals.'' In coordination 
with DHS' Office of Grants and Training, the DOC'S National 
Telecommunications and Information Administration will administer the 
PSIC Program consistent with this definition and will allow for both 
voice and data interoperability solutions for public safety.

    Question: If Public Safety Interoperable Communications (PSIC) 
funds will bedistributed through the States, what requirements will 
States have to ensurethat the funds are passed to the urban areas in a 
timely manner? How will this be enforced?
    Response: The guidance for the PSIC Grant Program is currently 
being developed by the Commerce Department's National 
Telecommunications and Information Administration (NTIA) and the 
Department of Homeland Security (DHS). Pass through requirements are 
currently being discussed and will be released as part of the grant 
guidance. Enforcement of the grant program guidance will be conducted 
through a robust on-site monitoring and detailed grantee reporting 
requirements.

    Question: Will States and urban areas be able to use these grant 
funds to support operability as well as interoperability?
    Response: NTIA understands the importance of operability, as well 
as interoperability, for our nations' first responders. While the 
obvious focus of the PSIC Program is to improve interoperability among 
federal, state, and local public safety agencies, some interoperability 
solutions may also improve the state of operability in some 
circumstances. As stated previously, NTIA and DHS are in the process of 
drafting program guidance which will further define allowable costs.

    Question: What kinds of technologies and equipment will States and 
urban areas receiving funds be able to purchase? Will the grant 
guidance attempt to encourage the purchase of next generation 
technologies such as IP-based systems?
    Response: NTIA is committed to exploring the use of all available 
technologies that advance overall public safety interoperability, as 
long as those technologies will enable first responders to interoperate 
with the 700 MHz bands in the future. NTIA and DHS are in the process 
of drafting program guidance which will further define allowable costs, 
including next generation technologies.

                                 <all>

</pre></body></html>
